                                         Office of Inspector General
                                        Corporation for National and
                                                 Community Service




              AGREED-UPON PROCEDURES FOR
            CORPORATION FOR COMMUNITY SERVICE
                   GRANTS AWARDED TO
                  EQUAL JUSTICE WORKS

                    OIG REPORT NUMBER 08-19




                             Prepared by:

                   COTTON & COMPANY LLP
                    635 Slaters Lane, 4th Floor
                    Alexandria, Virginia 22314




This report was issued to Corporation management on June 18, 2008. Under the laws and
regulations governing audit follow-up, the Corporation is to make final management decisions
on the report’s findings and recommendations no later than December 18, 2008 and complete
its corrective actions by June 18, 2009. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                   OFFICE OF INSPECTOR GENERAL
                                  AGREED-UPON PROCEDURES FOR
                          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                       GRANTS AWARDED TO
                                       EQUAL JUSTICE WORKS


                                                         CONTENTS


Section                                                                                                                     Page


Executive Summary .......................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                    4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs............................                                 6

Schedule A: Pro Bono Legal Corps Program.................................................................                    7

Schedule B: Legal Aid Foundation of Los Angeles ........................................................ 11

Exhibit B: Compliance Results ...................................................................................... 14

Appendix

A: Equal Justice Works’ Response to Agreed-Upon Procedures Report
B: Corporation’s Response to Agreed-Upon Procedures Report
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures to
assist the OIG in grant cost and compliance testing of Corporation-funded Federal assistance
provided to Equal Justice Works (EJW).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of $22,637,
education awards of $39,350, and student loan accrued interest awards of $8,357. A
questioned cost is an alleged violation of a provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of funds or
a finding that, at the time of testing, includes costs not supported by adequate documentation.
Detailed results of our agreed-upon procedures are presented in Exhibit A and the supporting
schedules.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards and, in some cases, accrued interest awards from the Corporation’s
National Service Trust. These award amounts are not funded by Corporation grants and thus
are not included in claimed costs. However, as part of our agreed-upon procedures, and using
the same criteria as used for the grantees claimed costs, we determined the effect of our
findings on eligibility for education-awards and accrued interest awards from the National
Service Trust.

Grant compliance results are summarized in Exhibit B. Following is a summary of those testing
results.

1.     Some member contracts were not signed before applicants started service, and one
       member continued to serve past the contract end date.

2.     Some member position descriptions included activities that are inconsistent with the
       regulations and grant terms.

3.     EJW did not have documentation to demonstrate that some member evaluations were
       conducted.

4.     EJW and its subgrantees had weaknesses in member timekeeping procedures.

5.     EJW did not always complete member enrollment and exit forms and enter them into the
       Corporation’s Web-Base Reporting System (WBRS) in accordance with AmeriCorps
       requirements.

6.     EJW and its subgrantees did not always conduct orientation training or document
       member attendance at orientation.

7.     EJW and subgrantee financial management systems did not adequately account for and
       report grant costs in accordance with Federal requirements.

8.     EJW and its subgrantees did not ensure the allowability of claimed Federal and match
       grant costs.

                                             1
9.      EJW did not ensure that subgrantees complied with AmeriCorps requirements for
        eligibility, unemployment insurance, and living allowance payments.

10.     EJW did not have written procedures to perform subgrantee site visits or desk reviews
        within a specific period and did not have procedures to obtain subgrantee audit
        management letters or perform necessary reconciliations.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
(AUP) Program for Corporation Awards to Grantees (including Subgrantees), dated July 2007.
Our procedures covered testing of the following grants:

            Program          Award No.         Award Period         AUP Period       Total Award
      AmeriCorps National   03NDHDC001       08/13/03-03/31/07   08/13/05-03/31/07      $931,945
      AmeriCorps National   06NDHDC002       08/01/06-07/31/09   08/01/06-09/30/07    $1,084,413

The OIG’s agreed-upon procedures program included:

               Obtaining an understanding of EJW and its subgrantee monitoring process.

               Reconciling claimed grant costs and match costs of EJW and a sample of
                subgrantees to their accounting systems.

               Testing subgrantee member files to verify that records supported eligibility to
                serve and allowability of living allowances and education awards.

               Testing compliance of EJW and a sample of subgrantees on selected
                AmeriCorps Provisions, and award terms and conditions.

               Testing claimed grant costs and match costs of EJW and a sample of
                subgrantees to ensure:

                      AmeriCorps grants were properly recorded;

                      Costs were properly matched; and

                      Costs were allowable and supported in accordance with applicable
                       Office of Management and Budget (OMB) circulars, grant provisions,
                       award terms and conditions.

We conducted our fieldwork at EJW (Pro Bono Legal Corps and Katrina Corps programs) and
two of its fourteen subgrantee sites, Legal Aid Foundation of Los Angeles (LAFLA) and Public
Counsel, from November 2007 through March 2008.

BACKGROUND

The Corporation supports national and community service programs that provide full- and part-
time opportunities for Americans to engage in service and provides educational opportunities to
participants. The AmeriCorps program is one of the Corporation’s three major service
initiatives. Approximately three-quarters of all AmeriCorps grant funding is awarded to state
service commissions, which award competitive grants to nonprofit groups that then recruit
                                               2
AmeriCorps members to respond to local needs. The Corporation distributes most of the
balance of its funding directly to multi-state and national organizations such as EJW through a
competitive grant process.

EJW is a not-for-profit organization founded in 1986 as the National Association for Public
Interest Law (NAPIL). EJW partners with law schools, law firms, corporate legal
departments, and nonprofit organizations to promote public service and to provide attorneys
with training and skills to offer effective legal representation to vulnerable populations. EJW
promotes opportunities for law students and new law graduates to engage in public service
through one of its five programs.

AmeriCorps National Direct grants are annual awards to EJW to recruit and select members
who, after successfully completing service, earn an education award. In Program Year (PY)
2005-2006, EJW operated the Katrina Corps and Pro Bono Legal Corps programs. In PY
2006-2007, it operated the Pro Bono Legal Corps program. EJW also passed AmeriCorps
National awards to eligible subgrantees. EJW AmeriCorps grants funded 338 AmeriCorps
members in PY 2005-2006 and 382 in PY 2006-2007.

EXIT CONFERENCE

The contents of this report were discussed with representatives from EJW and the
Corporation on May 16, 2008. We summarized EJW comments in appropriate sections of
this report and included its full comments in Appendix A. The Corporation only responded to
one of the findings. The Corporation will respond to all findings and recommendations in its
management decision after the final report is issued. We summarized Corporation
comments in the appropriate section of this report and included its full comments in
Appendix B.




                                               3
June 13, 2008


Office of Inspector General
Corporation for National and Community Service


                            INDEPENDENT ACCOUNTANTS’ REPORT ON
                             APPLYING AGREED-UPON PROCEDURES


Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures Program for Corporation Awards to Grantees (including Subgrantees), dated
July 2007. These procedures were agreed to by the OIG solely to assist it in grant cost and
compliance testing of Corporation-funded Federal assistance provided to OCS for the
awards detailed below.

This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants (AICPA) and generally
accepted government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures, either for the purpose for which this report has been
requested or any other purpose.

Our procedures covered testing of the following grants:

          Program           Award No.        Award Period         AUP Period       Total Award
    AmeriCorps National    03NDHDC001      08/13/03-03/31/07   08/13/05-03/31/07      $931,945
    AmeriCorps National    06NDHDC002      08/01/06-07/31/09   08/01/06-09/30/07    $1,084,413

We performed testing at EJW (Pro Bono Legal Corps and Katrina Corps programs) and two
of its fourteen subgrantees sites, LAFLA and Public Counsel. We selected and tested:

               45 Federal and 26 match-cost transactions at EJW,
               56 cost transactions at LAFLA, and
               20 cost transactions at Public Counsel.

We also tested certain grant compliance requirements by sampling files of 73 EJW and
subgrantee members (see table below). We performed all applicable testing procedures in
the AUP Program on each sample transaction or member file.



                                             4
                        Program            PY 2005-2006      PY 2006-2007
                 Katrina Corps                   12
                 Pro Bono Legal Corps            25                 25
                 LAFLA                            3                  3
                 Public Counsel                   2                  3
                                                 42                 31

RESULTS OF AGREED-UPON PROCEDURES

We questioned claimed Federal-share costs of $22,637. A questioned cost is an alleged
violation of provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

We questioned education awards of $39,350, and accrued interest awards of $8,357. Grant
participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and repayment of student loan interest accrued during the term
of service from the National Service Trust. These awards amounts are not funded by
Corporation grants and thus are not included in claimed costs. As part of our agreed-upon
procedures and using the same criteria as claimed costs, we determined the effect of our
findings on education and accrued interest award eligibility.

Detailed results of our agreed-upon procedures on claimed costs are presented in Exhibit A
and the supporting schedules. Results of testing grant compliance are summarized in
Exhibit B. We were not engaged to, and did not perform an examination, the objective of
which would be expression of an opinion on the subject matter. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported.

This report is intended solely for the information and use of the OIG, the Corporation, EJW,
and the Congress and is not intended to be and should not be used by anyone other than
these specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                              5
                                                                                          EXHIBIT A


                                    EQUAL JUSTICE WORKS
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                   CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                                                        Questioned
                                                                    Education Accrued
        Award              Awarded       Claimed     Questioned      Awards     Interest       Ref
03NDHDC001
Pro Bono Legal Corps
Program                     $261,140      $249,658       $5,437        $1,000                 Sch A
Katrina Corps Program                                                   4,000      $315      Ex B (1)
LAFLA                         63,000        63,000       13,598         9,450     2,028       Sch B
Public Counsel                41,953        41,953
Others                       565,852       453,355
                      1
Prior-Year Adjustment        _______        26,086       ______        _____     _____
Totals                      $931,945      $834,052      $19,035       $14,450    $2,343

06NDHDC002
Pro Bono Legal Corps
Program                     $338,037      $250,694       $1,856        $6,000                 Sch A
LAFLA                          62,999       62,755        1,746        14,175    $4,021       Sch B
Public Counsel                 63,000       63,000                       4,725    1,993      Ex B (1)
Others                        620,377      509,255        _____         _____      ____
Totals                     $1,084,413     $885,704       $3,602       $24,900    $6,014

Totals                     $2,016,358   $1,719,756      $22,637       $39,350    $8,357




  1
      Includes PY 2004-2005 payments and adjustments made at grant closeout.
                                                  6
                                                                                   SCHEDULE A


                                  EQUAL JUSTICE WORKS
                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                            PRO BONO LEGAL CORPS PROGRAM


                                                           PY 2005-         PY 2006-
                                                         2006 Totals      2007 Totals     Notes
Claimed Federal Costs                                     $249,658         $250,694

Questioned Federal Costs:
 Unallowable costs, prior periods                           $2,531                          1
 Unsupported costs, conference registration                  1,900              800         2
 Unallowable costs, meals                                    1,006              237         3
 Unallowable costs, gifts                                                       819         4

Total Questioned Federal Costs                              $5,437           $1,856

Questioned Education Awards:
  Returning members, no prior-year final evaluation         $1,000           $4,000         5
  Service before signed contract                             _____            2,000         6
Total Questioned Education Awards                           $1,000           $6,000


1.     EJW claimed $2,531 of prior-period expenses as detailed below:

                                       Description                                      Amount
        Mississippi Industries For the Blind, Clothing for PY 2004-2005 members          $2,262
        Dell Server purchased during PY 2004-2005                                           269
        Total                                                                            $2,531

       These expenses were incurred in June 2005; EJW’s PY 2005-2006 budget period
       did not, however, start until August 13, 2005. 45 C.F.R. §2543, Uniform
       Administrative Requirements for Grants and Agreements With Institutions of Higher
       Education, Hospitals, and Other Non-Profit Organizations, Subpart C. 28., Period of
       availability of funds, states that, where a funding period is specified, a recipient may
       charge the grant only allowable costs resulting from obligations incurred during the
       funding period. EJW officials considered the AmeriCorps funding to be continuation
       funding and not funding required to be spent during a specific funding period. We
       questioned the $2,531.

2.     EJW claimed $2,700 ($1,900 in PY 2005-2006 and $800 in PY 2006-2007) of
       unsupported conference registration fees. It provided documentation to support
       payment of the expense, but did not provide documentation to indicate the
       registration fee amount. OMB Circular A-122, Attachment A. General Principals,
       Paragraph A.2. Factors affecting allowability of costs, states that an award cost must
       be adequately documented to be allowable. We questioned $2,700.


                                               7
3.   EJW claimed $1,243 ($1,006 in PY 2005-2006 and $237 in PY 2006-2007) of meal
     expenses as detailed below.

             PY        Description                                   Amount
         2005-2006     Grillfish (Communications Lunch)                 $43
         2005-2006     M Bable (Program Director Lunch)                 509
         2005-2006     Cap City (AmeriCorps Attorney Lunch)             454
         2006-2007     Broadway Grill (Dinner)                           80
         2006-2007     AmeriCorps Attorney and Staff (Dinner)           157
         Total                                                       $1,243

     The documentation provided by EJW indicated that the claimed costs were for a
     lunch involving its Communications Director and the EJW AmeriCorps Program
     Director; meals for the EJW AmeriCorps Program Director and an AmeriCorps
     member during a site visit; and meals for AmeriCorps members and subgrantee
     program directors during training events. However, we could not determine the
     allowability of the expenses because the costs were supported by non-itemized
     credit card receipts. Without itemized receipts, we could not determine compliance
     with OMB Circular A-122 Appendix B Selected Items of Costs, Paragraph 3.
     Alcoholic beverages. Adequate documentation is required by OMB Circular A-122
     Cost Principles for Non-Profit Organizations, Attachment A. General Principals,
     Paragraph A.2. Factors affecting allowability of costs. Additionally, no
     documentation was provided to demonstrate the site visit meals are necessary for
     the performance of the award or the costs were not unallowable entertainment cost
     in accordance with OMB Circular A-122, Appendix B Selected Items of Costs,
     Paragraph 14, Entertainment Costs. We questioned $1,243.

4.   EJW claimed $819 of gifts provided to members and trainers as detailed below:

                                Description                              Amount
      Gifts cards for trainers                                            $150
      Magazine subscriptions for members-member recognition                443
      Magazine subscriptions for members-member recognition                149
      Gifts for trainers                                                    56
      Lunch and gift for trainer                                            21
      Total                                                               $819

     OMB Circular A-122, Attachment B. Selected Items of Cost, Paragraph 14,
     Entertainment Costs, states that entertainment costs, including amusement,
     diversion, and social activities and any costs directly associated with such costs
     (tickets to shows or sports events, meals, lodging, rentals, transportation, and
     gratuities), are unallowable. We questioned $819.

5.   EJW did not provide an end-of-term evaluation form for one member who served a
     second term in PY 2005-2006 and four members who served second terms in PY
     2006-2007. AmeriCorps Special Provisions 2005-2006, Section IV. D.6.
     Performance Reviews, requires mid-term and end-of-year member performance
     evaluations. According to 45 C.F.R. §2522.220(c), Eligibility for Second Term, a
     participant is not eligible for a second or additional term of service and/or for an
     AmeriCorps education award without a satisfactory performance evaluation. We

                                            8
        questioned one member’s education award of $1,000 in PY 2005-2006 and the four
        members’ education awards of $4,000 in PY 2006-2007.

6.      Six members started service before signing member contracts (three members in PY
        2005-2006 and three members in PY 2006-2007). AmeriCorps Special Provisions
        (2005-2006) Section IV. C.1. Member Enrollment Procedures, states that an
        individual is enrolled as an AmeriCorps member when he or she signs a member
        contract. EJW officials said they were unaware of the requirement for members to
        sign contracts before starting service.

        We questioned education awards of $2,000 for the two members who did not meet
        minimum service hours required for their education awards when we subtracted the
        service hours performed before member contracts were signed, as detailed below:

                                       Hours Before      Eligible     Service     Questioned
              WBRS      Timesheet         Signed         Service       Hours      Education
     Member   Hours       Hours          Contract         Hours      Required       Award
       1       360         360              144            216          300         $1,000
       2       317         317              168            149          300         $1,000

EJW’s Response: EJW did not agree with all of questioned costs in Notes 1 through 6:

              Note 1. Prior-Period Costs: EJW stated that it received permission from its
               Corporation Grants Officer to claim the $2,531 of questioned costs.

              Note 2. Conference Registration Costs: EJW provided a letter from the
               American Bar Association detailing amounts paid by EJW to attend the 2006
               and 2007 Equal Justice Conferences to support questioned costs.

              Note 3. Meal Costs: EJW agreed that $43 of questioned meal costs was
               unallowable, but did not agree that the remaining $1,200 was unallowable. It
               provided a description of the meals questioned to demonstrate cost
               allowablity. One of the meals citied by EJW was lunches provided to EJW
               and site staff attending the Project Director’s training at the Doubletree
               Washington on August 11, 2005.

              Note 4. Gifts to Members and Trainers: EJW stated that gifts are
               allowable, are not entertainment related, and saved Federal funds. EJW
               provided $25 gift certificates in lieu of charging the $540 daily rate for trainers
               and consultants. In lieu of allowable recognition items that can cost up to $90
               per item, EJW provided lower-cost magazine subscriptions that averaged $20
               per member.

              Note 5. Returning Members Without Prior-Year Final Evaluation. EJW
               stated it has documented that all tested members successfully completed
               their terms. While it was unable to produce written evaluations for all of the
               members in question, members’ supervisors attested that the evaluations
               were done. EJW noted that acceptance of members in the second year was
               evidence that members successfully completed their first terms of service.



                                                9
            Note 6. Service Before Signed Contract: EJW stated that it documented
             that all tested members successfully completed their terms, and EJW was in
             substantial compliance with AmeriCorps Provisions on member enrollments.

Accountants’ Comments: We continue to make the recommendations described in Exhibit
B for the above questioned costs. Our comments on Notes 1 through 3 follow:

            Note 1. Prior-Period Costs: EJW stated that it received permission from its
             Corporation Grants Officer to claim $2,531 of prior-period costs, but did not
             provide documentation, such as an email or memorandum summarizing a
             telephone conversation, to support Corporation Grants Officer approval of
             prior-period costs.

            Note 2. Conference Registration Costs: EJW provided a letter from the
             American Bar Association to support questioned costs. This letter, however,
             showed that EJW paid the American Bar Association $20,260 in 2006 and
             $7,800 in 2007 to attend the Equal Justice Conferences. The documentation
             did not support the amount of the registration fee or the amount allocated to
             the grant.

            Note 3. Meal Costs: We questioned five items for which we could not
             determine eligibility. EJW agreed that one item, $43, was unallowable, but
             disagreed that the remaining $1,200 was unallowable. In response to the
             draft report, EJW provided descriptions of five transactions, but it did not
             provide itemized receipts to allow us to evaluate allowability.




                                            10
                                                                               SCHEDULE B


                                  EQUAL JUSTICE WORKS
                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                          LEGAL AID FOUNDATION OF LOS ANGELES


                                                       PY 2005-        PY 2006-
                                                      2006 Totals     2007 Totals     Notes
Claimed Federal Costs                                  $63,000         $62,755

Questioned Federal Costs:
 Returning member no prior-year final evaluation       $10,393                          1
 Unallowable lump sum living allowance payments
                                                          1,880           1,561         2
 Unsupported costs, member and staff travel               1,192                         3
 Unallowable costs, unemployment insurance                  133             185         4

Total Questioned Federal Costs                         $13,598           $1,746

Questioned Education Awards:
 Returning member, no prior-year final evaluation        $4,725                         1
 Service before signed contract                           4,725         $14,175         5
Total Questioned Education Awards                        $9,450         $14,175

Questioned Accrued Interest                              $2,028          $4,021          6


1.     LAFLA did not provide an end-of-term evaluation from PY 2004-2005 for one
       member who served a second term in PY 2005-2006. AmeriCorps Special
       Provisions 2005-2006, Section IV. D.6. Performance Reviews, requires mid-term and
       end-of-year member performance evaluations. According to 45 C.F.R. §
       2522.220(d), a participant is not eligible for a second or additional term of service
       and/or for an AmeriCorps education award without a satisfactory performance
       evaluation. We questioned the member’s PY 2005-2006 Federal-share living
       allowance and fringe benefits of $10,393 and education award of $4,725.

2.     LAFLA claimed $1,880 and $1,561 of lump-sum living allowance payments provided
       to two PY 2005-2006 members and two PY 2006-2007 members upon completion of
       their service. AmeriCorps Special Provisions (2005-2006), Section IV. I.1. Living
       Allowance Distribution, states that programs should pay the living allowance in
       regular increments, such as weekly or bi-weekly, paying an increased increment only
       for increased living expenses, such as food, housing, or transportation, and that the
       program is not permitted to provide a “lump sum” payment of the remaining living
       allowance upon a member’s early completion of a term of service.

       In addition, payments should not fluctuate based on the number of hours served in a
       particular period and must cease when a member concludes a term of service.
       Further, if a member enrolls after the program start date, the program may not
       increase the member’s incremental payment. LAFLA officials considered the
                                            11
     members to be entitled to living allowances specified in the member contract, even if
     the members completed service requirements before their contract end dates. We
     questioned the $1,880 and $1,561 of lump sum living allowance payments.

3.   LAFLA claimed unsupported member and staff travel expenses of $1,192 in PY
     2005-2006. LAFLA provided a schedule showing the amount of member and staff
     travel claimed by month and general ledger accounting reports. The general ledger
     accounting reports did not, however, support claimed member and staff travel
     expenses. LAFLA also did not provide any documentation, such as invoices or
     expenses reports, to support member and staff travel expenses. According to 45
     C.F.R. § 2543.21, Standards for financial management systems, subsection (b),
     grantee financial management systems must provide accurate, current, and
     complete disclosure of financial results of each Federally-sponsored program. We
     questioned the $1,192 of member and staff travel expenses.

4.   LAFLA claimed Federal member unemployment insurance expenses of $133 in PY
     2005-2006 and $185 of PY 2006-2007. Unemployment insurance expenses are
     unallowable in accordance with AmeriCorps Special Provisions (2005-2006), Section
     IV. I.2.d. Unemployment Insurance, which states:

            The U.S. Department of Labor ruled on April 20, 1995 that Federal
            unemployment compensation law does not require coverage for
            members because no employer-employee relationship exists. The
            Grantee cannot charge the costs of unemployment insurance taxes to
            the Grant unless mandated by state law. Programs are responsible
            for determining the requirements of state law by consulting their State
            Commission, legal counsel or the applicable state agency.

     Further, the California Office of the Governor, California Volunteers website states:

            For most purposes, AmeriCorps members are considered to be participants
            in a national service program, not employees. For example, state law
            specifically states that AmeriCorps members are not eligible for
            unemployment benefits.

     We questioned $318.

5.   Five members started service before signing member contracts (two in PY 2005-
     2006 and three in PY 2006-2007). AmeriCorps Special Provisions (2005-2006)
     Section IV. C.1. Member Enrollment Procedures, states that an individual is enrolled
     as an AmeriCorps member when he or she signs a member contract. LAFLA stated
     that it followed contract law and entered into oral agreements with the members on
     their first days of service. LAFLA officials said they were unaware of the requirement
     that members sign contracts before starting service.

     We questioned education awards for the five members who did not meet minimum
     service hours required for full-time, part-time, and minimum-time education awards
     when we subtracted the service hours performed before member contracts were
     signed, as detailed below. We questioned the education awards of $4,725 for one of
     the PY 2005-2006 members and $14,475 for three of the PY 2006-2007 members.
     The education award for one of the PY 2005-2006 members was questioned in Note
     1 above.
                                           12
                                              Hours                   Service
                                              Before     Eligible      Hours       Questioned
                    WBRS       Timesheet      Signed     Service    Required for   Education
       Member        Hours       Hours       Contract     Hours       Award          Award
         1          1,714.00     1,714.00     127.00    1,587.00      1,700.00       Note 1
         2          1,700.00     1,700.00      67.00    1,633.00      1,700.00       $4,725
         3          1,779.50     1,748.05      77.80    1,670.25      1,700.00       $4,725
         4          1,702.50     1,702.50     167.80    1,534.70      1,700.00       $4,725
         5          1,732.75     1,732.66      35.25    1,697.51      1,700.00       $4,725

6.     The Corporation paid accrued interest awards to four LAFLA members whose
       education awards were questioned in Notes 1 and 5.

       According to 45 C.F.R. §2529, Payment of Accrued Interest, subsection 10(a), the
       Corporation will pay interest that accumulates on an individual’s qualified student loan if
       the member successfully completes a term of service in an approved AmeriCorps
       position.

       We questioned accrued interest payments made by the Corporation of $6,049 ($2,028
       for one PY 2005-2006 member and $4,021 for three PY 2006-2007 members), because
       the members did not complete their terms of service.

EJW’s Response: EJW disagreed with all questioned costs except for $1,561 in lump-sum
living allowance payments to PY 2006-2007 members and $318 of unemployment insurance
payments for PY 2005-2006 and PY 2006-2007 members (see Notes 2 and 4). It did not
agree with the amount of questioned member and staff travel costs. EJW stated that it
examined all travel and training expenses for the two years, and it appeared to EJW that
some travel expenses were reported as training expenses. EJW’s responses for the
questioned costs and education award in Notes 1, 5, and 6 are summarized in Exhibit B.

Accountants’ Comments: We re-examined unsupported member and staff travel expenses
based on EJW’s response and confirmed that member and staff travel expenses of $735 in
PY 2005-2006 and $819 in PY 2006-2007 were identified as training expenses on
documents provided by LAFLA. We subtracted these costs from member training match
costs and added them to unsupported Federal member travel costs. As a result, PY 2005-
2006 unsupported costs were decreased to $1,192 and unsupported PY 2006-2007 costs
were eliminated.




                                              13
                                                                                 EXHIBIT B


                                     EQUAL JUSTICE WORKS
                                     COMPLIANCE RESULTS


1.       Some member contracts were not signed before applicants started service,
         and one member continued to serve past the contract end date.

AmeriCorps applicants become members only after signing a contract; therefore, service
hours recorded before signing do not count toward earning an education award. Service
hours were recorded for periods before member contracts were signed and after a contract
ended. Service hours earned while meeting AmeriCorps member requirements were
insufficient to warrant education awards.

                               Contracts      Service After   Questioned     Questioned
                              Signed After    Contract End    Education        Accrued
            Program           Service Start       Date          Awards     Interest Awards
     Katrina Corps                  5                           $4,000          $315
     Pro Bono Legal Corps           6                            2,000
     LAFLA                          5                           18,900         4,021
     Public Counsel                 1               1            4,725         1,993
     Totals                       17                1          $29,625        $6,329


Pubic Counsel officials stated that the member who performed service after the contract end
date served more than 1,700 hours, but recorded only enough hours to reach the 1,700
requirement. After we identified this issue, the Public Counsel member and the member’s
supervisor provided written statements concerning the member’s service hours. The
member stated that he was unaware that he was allowed to record travel time to and from
the October 2006 Equal Justice Works AmeriCorps conference and thus did not record 17
hours spent on this activity. The supervisor stated that the member worked in excess of
1,700 hours and continued to serve full time for two weeks after the member was exited
from WBRS.

In addition, we noted that:

               The original member contract for one PY 2006-2007 Pro Bono Legal Corps
                member was missing.

               The member contract for one PY 2005-2006 Pro Bono Legal Corps member
                was not dated by the member and supervisor.

               The date on which one PY 2005-2006 Pro Bono Legal Corps member signed
                a member contract was amended on the document, but the change was not
                initialed.

               Whiteout was used to make changes to the contracts of one PY 2005-2006
                Public Counsel member and one PY 2006-2007 Public Counsel member.

AmeriCorps Special Provisions (2005-2006), Section IV. C.1.b. Member Enrollment
Procedures, stipulates that AmeriCorps programs are required to sign a member contract
                                               14
with an individual or otherwise enter a legally enforceable commitment as defined by state
law before enrolling a member. Further, members are not considered enrolled in a program
until a contract is signed, and therefore service hours recorded before signing a member
contract or after contract expiration are not counted toward member education awards.

Recommendations:

       1a.    The Corporation train EJW on procedures to ensure that it obtains a signed
              and dated contract stipulating all member responsibilities and rights before a
              member begins service and retention requirements for member contracts in
              accordance with 45 C.F.R. § 2543.53 Retention and access requirements for
              records.

       1b.    The Corporation require EJW to strengthen its training and monitoring of
              member contracts for compliance with AmeriCorps Provisions.

       1c.    The Corporation disallow and, if already used, recover education awards
              made to members who did not serve the minimum required service hours.

       1d.    The Corporation disallow and recover any accrued interest awards paid or
              awarded by the National Service Trust for those members with questioned
              education awards.

EJW’s Response:

             EJW welcomes the opportunity to work with the Corporation to improve these
              systems.

             EJW certifies that all members listed in the report successfully completed full
              AmeriCorps terms. Equal Justice disagrees with the recovery of the
              education awards for these members.

Corporation’s Response: The Corporation does not interpret the grant provisions as
disallowing service hours solely because they were performed prior to the signing of a
member contract; therefore, it does not agree that the hours served before the member
signed a contract should be deducted.

Accountants’ Comments: The provisions describe the order of events necessary for
enrollment. The first event is the signing of the member contract. The contract is the
commitment from the member to serve. Under the grant provision, the contract establishes
the required terms and timeframes of service expected from both parties from that point
forward. Recognition of service prior to the contract creates an illusory promise on both
sides of the agreement, and creates confusion as to the start date for the term of service,
coverage under the health insurance plans and state workmen’s compensation eligibility, as
well as responsibility for personal injury.

There should be no confusion over the start date for calculating accrued interest awards and
service hours for education awards. The Corporation has not offered an alternative event
that specifies the date an applicant becomes a member. Regulations also allow for pre-
member orientation so that an applicant can be on site without being a member. Something
has to occur for which there is no doubt that the person is, in fact, a member. The onus is
on the Corporation to state positively what it is that distinguishes a member from an
                                             15
applicant. What is this event/date if other than the member contract and the criteria quoted
in the AmeriCorps Provisions?

 In addition to describing the terms of service, EJW’s contracts include rules of conduct,
prohibited activities, grievance procedures and disclosure for a drug-free workplace.
Grantees commonly distribute other disclosures at the same time the member contract is
signed, for example, the Civil Rights Non Harassment Policy and the Grant Program Civil
Rights Policy. We believe that hours served prior to the execution (signing) of a contract
containing the related required disclosures results in unreasonable and unnecessary risk for
all parties involved.

Hours served before the start dates are not valid service hours. We continue to question the
costs because the members did not serve the required number of hours to complete their
term of service when hours recorded before the start date are deducted from the total
reported service hours. The OIG is continuing to work with the Corporation on the issue of
hours serviced before signing member contracts.

2.     Some member position descriptions included activities that are inconsistent
       with the regulations and grant terms.

We noted that position descriptions for one PY 2005-2006 and three PY 2006-2007 Pro
Bono Legal Corps members included activities that are inconsistent with grant terms and
prohibited by regulation as follows:

              Assisting with legislative advocacy
              Initiating large-scale impact litigation and engaging in public advocacy
              Engaging in advocacy with government officials
              Engaging in legislative advocacy for nursing home residents, or for legislation
               to strengthen protections for low-income debtors.

The members served minimum terms and received $300 education awards. We did not
question the education awards.

According to 45 C.F.R. § 2520.65, What activities are prohibited in AmeriCorps subtitle C
programs?, staff and members may not engage in activities attempting to influence
legislation and participate in or endorse events or activities that are likely to include
advocacy for or against political parties, political platforms, political candidates, proposed
legislation, or elected officials.

Recommendations:

       2a.     The Corporation provide guidance to EJW and its subgrantees to ensure they
               understand the allowable activities of the members. All member contracts for
               the Pro Bono Legal Corps should be reviewed to ensure member activities
               meet the purpose of the grant.

       2b.     The Corporation require EJW to strengthen its training and monitoring
               procedures to ensure that members do not engage in prohibited activities.

EJW’s Response: EJW stated that it scrupulously follows AmeriCorps regulations
regarding prohibited activities and carefully reviews all contracts to ensure that member

                                               16
activities meet grant purposes. EJW disagrees that it needs to strengthen its training and
monitoring procedures.

Accountants’ Comments: We continue to make the recommendations described above.

3.     EJW did not have documentation to demonstrate that some member
       evaluations were conducted.

EJW did not provide documentation showing that some members received final evaluations,
as follows:

                                                       Missing Documentation
                   Program            Tested        PY 2005-2006   PY 2006-2007
           Katrina Corps               12                12
           Pro Bono Legal Corps        50                 25             25
           Totals                      62                 37             25

After we identified this issue, EJW provided copies of letters from organizations that hosted
the members as evidence of evaluations for two Katrina Corps members and eight Pro Bono
Legal Corps members. The evaluations provided were not signed by the members and
some supervisors or were undated or dated in December 2007 and January 2008, after the
issue was brought to the attention of EJW. In addition, some of the did not indicate if the
members completed the required number of hours and satisfactorily completed
assignments.

AmeriCorps Special Provisions (2005-2006), Section IV. D.6. Performance Reviews, states
that grantees must conduct and keep a record of at least a mid- and end-of-term written
evaluation of each member’s performance for full- and half-time members and an end-of-
term written evaluation for less than half-time members to document that the member has:

              Completed the required number of hours;
              Satisfactorily completed assignments; and
              Met other performance criteria communicated at the beginning of the service
               term.

EJW required the host organizations to conduct member evaluations, but did not require the
host organization to submit the completed evaluations to EJW. EJW officials stated that
completion of the signed final timesheets by the site supervisor constituted certification of a
successful term, and certification that a member had not completed either program
requirements or hours was the equivalent to a negative evaluation.

We identified EJW and LAFLA members without final evaluations who returned for a second
year of service, as follows;

              Five Pro Bono Legal Corps members without prior-year final evaluations
               returned for second terms of service. One PY 2005-2006 member was a
               returning member from PY 2004-2005, and four PY 2006-2007 members
               were returning members from PY 2005-2006.

              One LAFLA member without a prior-year final evaluation was a returning
               member in PY 2005-2006.
                                               17
Evaluations are necessary to ensure that members are eligible for additional service terms,
and that grant objectives have been met. Without evaluations, members are not eligible to
serve an additional term of service. We questioned education awards of $5,000 for the five
Pro Bono Legal Corps members, as explained in Schedule A. We questioned the Federal
share of member PY 2005-2006 living allowances and related benefits of $10,393, and
education awards of $4,725, as explained in Schedule B.

Recommendations:

       3a.    The Corporation train EJW on the requirements for member evaluations and
              ensure that EJW strengthen its training and monitoring procedures for
              conducting and documenting member evaluations.

       3b.    The Corporation verify the implementation of EJW’s training and monitoring
              procedures for member evaluations.

       3c.    We recommend that the Corporation disallow and recover the questioned
              costs and the related administrative costs.

       3d.    The Corporation disallow and, if already used, recover education awards
              certified for members who did not receive final evaluations.

       3e.    The Corporation disallow and recover any accrued interest awards paid or
              awarded by the National Service Trust for those members with questioned
              education awards.

EJW’s Response:

             EJW has strengthened policies and procedures regarding completion of mid-
              term and final evaluations and welcomes the opportunity to work with the
              Corporation to strengthen training and monitoring procedures.

             EJW notified potential Summer Corps members and supervisors in May 2008
              that final member evaluations must be submitted to EJW to successfully
              complete the program and receive an education award.

             EJW and LAFLA certify that the specific member listed in the report received
              evaluations in compliance with AmeriCorps provisions and successfully
              completed a full AmeriCorps term. EJW challenges the recovery of living
              allowance and related administrative costs for this member.

             EJW certifies that all members listed in the report received evaluations and
              successfully completed full AmeriCorps terms. EJW challenges the recovery
              of education awards and accrued interest awards, for these members.

Accountants’ Comments: We continue to make the recommendations described above.

4.     EJW and its subgrantees had weaknesses in member timekeeping procedures.

Katrina Corps, Pro Bono Legal Corps, LAFLA, and Public Counsel timesheets were not
always accurately recorded in WBRS. We tested timesheets for 73 members at EJW,
                                             18
LAFLA, and Public Counsel. Service hours recorded in WBRS were not supported by
member timesheets as follows:

                                                    PY 2005-   PY 2006-     Totals
                Program              Tested          2006       2007
        Katrina Corps                  12              1          0              1
        Pro Bono Legal Corps           50              1          1              2
        LAFLA                           6              0          1              1
        Public Counsel                  5              1          3              4
        Totals                         73              3          5              8

During testing, we noted weaknesses in timekeeping procedures. A summary of timesheet
discrepancies by program follows:

                                     Katrina    Pro Bono               Public
    Weakness                         Corps     Legal Corps     LAFLA   Council       Totals
    Signed Before Hours Served            1           3           1                      5
    WBRS Start Date Incorrect             2           6                                  8
    Timesheet Missing                     1           3                                  4
    Not Original                          1           5                    1             7
    Prepared in Pencil or Whiteout        2           9          4         1            16
    Changes Not Initialed                 5          20          2         2            29
    Missing Member or Supervisor
      Initials                           5              3        _          _            8
    Totals                              17             49        7          4           77


EJW, LAFLA, and Public Counsel did not have adequate policies and procedures to ensure
that members and/or supervisors initialed all timesheets and corrections, refrained from
using pencil and whiteout, obtained and maintained original timesheets, signed timesheets
only after completing service hours, and checked accuracy of recorded hours.

AmeriCorps requirements do not specifically address timesheet procedures. It is, however,
good business practice to maintain original documents, initial changes, make corrections
without pencil or whiteout, sign and date documents, and check the accuracy of hours
recorded on timesheets. Further, PY 2005-2006 Service Contract, XI, Host Site
Responsibilities, B., requires host sites to ensure that Summer Corps members keep simple
but accurate time-and-attendance records by regularly reviewing and signing the member’s
time log throughout the summer.

Without procedures to verify member activities or timesheet accuracy, the potential exists for
members to perform prohibited activities or receive education awards to which they are not
entitled. By initialing changes, accountability is maintained and timesheets are consistent
with member and management intentions. EJW officials stated that all of the issues cited
above would be eliminated as WBRS is taken offline, and EJW is required to use the
electronic timekeeping function of the replacement My AmeriCorps system.

Recommendations:

       4a.     The Corporation should provide guidance to EJW on proper member
               timekeeping procedures.

                                               19
        4b.    The Corporation require EJW to strengthen its training and monitoring to
               ensure that subgrantees maintain proper member timesheets.

        4c.    The Corporation should verify implementation of EJW’s timesheet training
               and monitoring.

 EJW’s Response: EJW welcomes the opportunity to work with the Corporation in
 implementing and training subgrantees on new AmeriCorps timekeeping systems.

 Accountants’ Comments: We continue to make the recommendations described above.

 5.     EJW did not always complete member enrollment and exit forms and enter
        them into the Corporation’s WBRS in accordance with AmeriCorps
        requirements.

 We tested enrollment and exit forms for 73 members at EJW, LAFLA, and Public Counsel.
 EJW did not enter member enrollment and exit forms into WBRS within the required 30-day
 timeframe, as follows:

                               Program            Enrollment          Exit
                       Katrina Corps                    9               8
                       Pro Bono Legal Corps           17               20
                       Totals                         26              28

 We also identified enrollment and exit forms that were missing, undated, unsigned by
 members, signed after the members started service, signed before the members completed
 service, and changed but not initialed, as follows:

                                                Signed          Signed                  Changes
                                    Not           After         Before         Not         Not
       Program           Missing   Dated      Service Start   Service End    Original   Initialed
Katrina Corps               1                       5
Pro Bono Legal Corps        2        1              4             7             4          1
Totals                      3        1              9             7             4          1


 AmeriCorps Special Provisions (2005-2006), Section IV. E.2. Notice to the Corporation’s
 National Service Trust, requires that grantees notify the Corporation within 30 days of a
 member’s enrollment and/or completion of service. AmeriCorps General Provisions (2005-
 2006) Section V. E. Retention of Records, requires grantees to retain all program records for
 3 years from the date of submission of the final Financial Status Report (FSR). Without
 timely completion and submission of enrollment and exit forms, the Corporation cannot
 maintain accurate member records.

 AmeriCorps requirements do not specifically address procedures for preparing forms. It is,
 however, good business practice to maintain original forms, initial changes, and date forms.




                                                 20
Recommendations:

       5a.    The Corporation train EJW proper completion of member enrollment and exit
              forms. Also, EJW needs to strengthen training and monitoring of sites for
              member forms.

       5b.    The Corporation verify that member forms are properly completed and
              submitted in accordance with grant requirements.

EJW’s Response: EJW welcomes the opportunity to work with the Corporation to continue
to improve its timely completion of enrollments and exits.

Accountants’ Comments: We continue to make the recommendations described above.

6.     EJW and its subgrantees did not always conduct orientation training or
       document member attendance at orientation.

EJW, LAFLA, and Public Counsel did not conduct or could not provide documentation to
demonstrate that members received orientation covering the AmeriCorps program and
requirements before starting service, as follows:

             EJW could not provide documentation to show that the following received
              orientation training: one PY 2005-2006 Katrina Summer Corps member, six
              PY 2005-2006 Pro Bono Legal Corps members, and eight PY 2006-2007 Pro
              Bono Legal Corps members. EJW officials explained that the members
              received orientation, but incorrectly reported training hours as service hours
              on their timesheets.

             LAFLA did not conduct an orientation before one PY 2005-2006 member
              started service. LAFLA officials explained that it waived the orientation
              requirement for the member, who was returning for a second term of service
              and had attended orientation during the prior program year.

             Public Counsel could not provide documentation to demonstrate that one
              member from PY 2005-2006 and one from PY 2006-2007 received
              orientation before starting service. Public Counsel stated that it had
              conducted orientation, but had no procedures to document member
              attendance.

AmeriCorps Special Provisions (2005-2006), Section IV. D.3. Training, Supervision, and
Support, states that grantees must conduct an orientation for members and comply with any
pre-service orientation or training required by the Corporation. In addition, grantees are
required to provide members with training, skills, knowledge, and supervision necessary to
perform tasks required in their assigned project positions, including specific training in a
particular field and background information on the community served.

Recommendations:

       6a.    The Corporation provide guidance to EJW on procedures to ensure that EJW
              programs and subgrantees conduct, maintain, and retain documentation to
              support member attendance at orientation.

                                             21
       6b.    The Corporation require EJW to strengthen its training and monitoring
              procedures of orientation requirements for EJW programs and subgrantees.
              The Corporation should verify implementation of the orientation procedures.

EJW’s Response: EJW does not agree that orientations were not conducted or
documented in accordance with the AmeriCorps provisions and welcomes verification from
the Corporation of its compliance. EJW stated that the Provisions do not dictate a timeframe
within which the orientation must be conducted, and that one LAFLA PY 2005-2006 member
did not receive an orientation in his second year, because the member had previously
received training in all topics required by the provisions. EJW stated that, in addition to
onsite orientation at the subgrantee level, it provides telephone orientation to new
AmeriCorps fellows.

Accountants’ Comments: We continue to make the recommendations described above.
As noted above, AmeriCorps Provisions require a pre-service orientation. It is not
reasonable to consider an orientation held two months after a member starts service to be a
pre-service orientation. Further, AmeriCorps Provisions require orientations for all
members, even if they are returning members. EJW did not provide documentation to
support that an onsite orientation was conducted or that it made telephone orientation calls
to new AmeriCorps members.

7.     EJW and subgrantee financial management systems did not adequately
       account for and report grant costs in accordance with Federal requirements.

Public Counsel and LAFLA did not adequately account for and report grant costs as follows:

             Public Counsel used estimates to report expenditures on its Periodic
              Expense Report (PER) instead of using actual expenditures from its
              accounting system. Public Counsel officials said they were unaware that
              reporting one-twelfth of budget for expenditures on its monthly PER was
              inappropriate until EJW identified the issue. In addition, Public Counsel did
              not segregate AmeriCorps and non-AmeriCorps costs or Federal and match
              costs in its accounting system. To prepare the reconciliation of actual
              expenditures for our testing, the AmeriCorps costs were identified from
              transaction level detail and entered into an excel spreadsheet with budget
              line items. The AmeriCorps costs were entered into each budget line item
              and any excess costs were entered as match. In the cases where
              AmeriCorps costs were less than budgeted costs, AmeriCorps costs were
              entered as Federal costs to maximize grant funds.

             Public Counsel’s accounting system supported more expenditures than were
              claimed, but did not reconcile costs to cost categories on its last PER in PY
              2005-2006 and PY 2006-2007.

              In PY 2005-2006, Public Counsel reported total expenditures of $133,240 on
              its last PER, but its accounting system supported $137,734. Its accounting
              system supported less expenditures than were claimed for member health
              care, member training, and staff training.




                                             22
            Category          Claimed       Supported      Unsupported
     Member Health Care       $10,274        $2,903           $7,371
     Member Travel              1,500           677              823
     Other Costs                1,250         1,176               74
     Member Training              700           224              476
     Staff Training               400           126              274
     Totals                   $14,124        $5,106           $9,018

    In PY 2006-2007, Public Counsel reported total expenditures of $147,898 on
    its last PER, but its accounting system supported $163,134. Its accounting
    system supported less expenditures than were claimed for member health
    care, member training, and staff training.



            Category          Claimed       Supported      Unsupported
     Member Health Care       $15,411        $11,227          $4,184
     Member Training              960            193             767
     Staff Training               400            123             277
     Totals                   $16,771        $11,543          $5,228

    Exceptions identified above resulted in overstated total member support and
    program operating costs on Public Counsel’s Financial Status Reports
    (FSRs). Public Council also incurred excess costs and had substantial
    overages in match requirements. We did not, however, question Federal
    costs, because Public Counsel’s accounting system commingled AmeriCorps
    and non-AmeriCorps costs and Federal share and match.

   LAFLA used estimates to report expenditures on its PERs. The estimates
    were used as the basis for recording AmeriCorps’ expenditures in LAFLA’s
    accounting system. We performed alternative procedures to verify if claimed
    costs were supported and noted the following:

              PY 2005-2006             Claimed       Supported     Unsupported
       Personnel Costs-Match           $16,094         $14,145        $1,949
       Benefits-Match                    4,024           3,536           488
       Staff Travel-Federal                450                           450
       Member Travel-Match                 602                           602
       Member Travel-Federal             3,672           2,930           742
       Member Training-Match               502             235           267
       Totals                          $25,344         $20,846        $4,498
              PY 2006-2007
       Staff Travel-Match                  802             503             299
       Totals                             $802            $503            $299

    Exceptions identified above resulted in overstated match costs claimed on
    LAFLA’s FSRs. LAFLA had, however, substantial overages in match
    requirements on the grants, and these offset the exceptions identified above.
    It appears that match overages will enable LAFLA to meet its match

                                  23
              requirement. As a result, we did not question overstated match costs here.
              We questioned unsupported costs of $1,192 in PY 2005-2006.

According to 45 C.F.R. § 2543.21, Standards for financial management systems, subsection
(b), recipient financial management systems must provide for accurate, current, and
complete disclosure of financial results of each Federally-sponsored program.

We also noted the following with respect to FSR submissions:

             EJW did not submit FSRs in a timely manner in accordance with grant
              requirements. AmeriCorps Special Provisions (2005-2006) Section IV. N.1. a.
              Financial Status Reports, requires grantees to submit semi-annual cumulative
              financial status reports summarizing expenditures during the reporting period
              using eGrants by April 30 and October 31. Further, AmeriCorps Special
              Provisions (2005-2006) Section IV. N.1. d. Final Financial Status Reports,
              requires grantees to submit a final FSR that is due within 90 days after the
              end of the grant. For Award No. 03NDHDC001 three FSRs were submitted
              late by 8, 22, and 97 days respectively.

             LAFLA and Public Counsel did not submit FSRs in accordance with subgrant
              requirements. AmeriCorps Special Provisions (2005-2006) Section IV. N.1.
              a. Financial Status Reports, states that grantees are responsible for
              establishing subgrantee reporting requirements, and that subgrantees must
              adhere to reporting requirements outlined and communicated by the grantee
              for the program year. EJW required quarterly FSRs be submitted in WBRS.
              We identified reports submitted after the subgrantee due dates as follows:

                                                    FSRs
                                       Not
                    Program         Submitted        Late      Days Late
                 LAFLA                  2             3        5, 28, 108
                 Public Counsel         1             5          5 to 28
                 Totals                 3             8

The failure to submit FSRs on time can adversely affect EJW’s ability to submit complete
and accurate reports to the Corporation.

Recommendations:

       7a.    The Corporation ensure that EJW and subgrantees submit FSRs on time.

       7b.    The Corporation require that EJW train subgrantees to maintain complete,
              accurate, and timely accounting records.

       7c.    The Corporation disallow and recover questioned costs and related
              administrative costs.

EJW’s Response: EJW and its subgrantees welcome verification from the Corporation that
its FSRs are submitted on time. EJW will provide extensive training on financial
management and accounting at its August site staff training and welcomes the opportunity
to work with the Corporation on this matter. EJW does not agree with the amount of
                                            24
questioned staff and member travel costs. It stated that it examined all travel and training
expenses for the two years, and it appeared to EJW that some travel expenses were
reported as training expenses.

In PY 2005-2006, EJW calculated $280 of staff training and travel costs in excess of claimed
staff travel costs. EJW also calculated $275 of unsupported member travel and training
costs.

              EJW stated that $730 of Federal staff training expenses not claimed should
               be used to offset $450 unsupported staff travel expense.

              EJW stated $1,205 of excess Federal training expenses should be used to
               offset $1,480 of unsupported Federal member travel expenses.

In PY 2006-2007, EJW calculated $342 of staff training and travel costs in excess of claimed
staff travel costs. EJW stated that $825 of staff training expenses should be used to offset
the $483 of unsupported staff travel costs.

Accountants’ Comments: We continue to make the recommendations described above
for Public Counsel and EJW. We re-examined unsupported member and staff travel
expenses based on EJW’s response as follows:

              LAFLA’s 2005-2006 budget did not include staff training costs and defined
               staff travel as local travel for law student volunteers. In addition, the $730 of
               training costs could not be considered staff travel costs. The documentation
               provided by LAFLA indicated that these costs were for registration fees for
               the AmeriCorps Program Director at employment litigation and employment
               discrimination conferences.

              In PY 2005-2006, LAFLA claimed $2,007 ($1,505 Federal and $502 match)
               of member training costs. LAFLA provided documentation supporting $2,710
               of member training costs; however, $235 of the member training costs was
               for the conference registration of the AmeriCorps Program Director. Because
               staff training costs were not approved in the budget, these costs are
               unallowable. Of the $2,495 for member training costs, $735 was for per-diem
               expenses while attending training events. We subtracted these costs from
               member training match costs and added these expenses to unsupported
               Federal member travel costs. This changed resulted in $267 of unsupported
               member training match costs and decreased unsupported Federal member
               travel expenses to $742.

              LAFLA’s 2006-2007 budget defined staff travel as local travel for law student
               volunteers and defined member travel as out-of-town travel to training and
               conferences and local mileage for members. The $825 of staff training costs
               does not qualify as staff travel costs. Documentation provided by LAFLA
               indicated that $825 was for conference registration fees. However, $910 of
               member training costs were for travel while attending training events. We
               subtracted these costs from member training match costs and added these
               expenses to unsupported member and staff travel. This change eliminated
               the unsupported Federal staff and member match travel costs and reduced
               unsupported member match to $412.

                                               25
8.     EJW and its subgrantees did not ensure the allowability of claimed Federal and
       match grant costs.

Sampled EJW costs included the following:

             EJW claimed unallowable Federal share in PY 2005-2006 of $5,437 and PY
              2006-2007 of $1,856. These costs are questioned because they are prior
              period costs, were not in compliance with OMB Circular A-122 Cost
              Principals for Non-Profit Organizations, or were not in compliance with
              AmeriCorps regulations. The questioned costs are summarized and
              described in the notes on Schedule A.

             In PY 2005-2006, EJW claimed match of $2,896 of promotional supplies
              (retractable pens, flip calculators, Post-it Note, key lights). OMB Circular A-
              122, Cost Principles for Non-Profit Organizations, Attachment B. Selected
              Items of Cost, Paragraph 1. Advertising and public relations costs, states that
              the only allowable public relations costs are those specifically required by the
              Federal award. Further, unallowable advertising and public relations costs
              include costs of promotional items and memorabilia, including models, gifts,
              and souvenirs.

             In PY 2005-2006, EJW claimed as match a $1,082 payment to the
              Mississippi Industries for the Blind. EJW purchased the AmeriCorps member
              gear in calendar year 2001, but did not pay off the balance until March 2006.
              45 C.F.R. §2543, Uniform Administrative Requirements for Grants and
              Agreements With Institutions of Higher Education, Hospitals, and Other Non-
              Profit Organizations, Subpart C. 28., Period of availability of funds, states
              that, where a funding period is specified, a recipient may charge the grant
              only allowable costs resulting from obligations incurred during the funding
              period.

             In PY 2006-2007, EJW claimed match of $1,036 for dinner costs at a Santa
              Monica, CA, restaurant for 19 people attending a staff training event. OMB
              Circular A-122, Attachment B. Selected Items of Cost, Paragraph 14.
              Entertainment Costs, states that costs of entertainment, including
              amusement, diversion, and social activities and any costs directly associated
              with such costs (tickets to shows or sports events, meals, lodging, rentals,
              transportation, and gratuities) are unallowable.

             In PY 2006-2007, EJW claimed match of $78 for transportation and parking
              expenses. The expenses were incurred in June 2006, but the PY 2006-2007
              grant did not begin until August 2006. OMB Circular A-110, Uniform
              Administrative Requirements for Grants and Agreements With Institutions of
              Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart
              C.28. Period of availability of funds, states that, where a funding period is
              specified, a recipient may charge to the grant only allowable costs resulting
              from obligations incurred during the funding period.

             EJW also claimed as match $170 of late payment and finance fees. OMB
              Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.

                                             26
              General Principles, Paragraph B.23. Interest, states costs incurred on
              borrowed capital are unallowable.

Match-cost exceptions identified in the five preceding bullets resulted in overstated match
costs claimed. EJW had, however, substantial overages in match requirements on the
grants, and these offset the match exceptions identified. It appears that the match overages
will enable EJW to meet its match requirement. As a result, we did not question overstated
match costs here.

Sampled Public Counsel costs included the following:

             Public Counsel reported the cost of medical, dental, and vision insurance as
              member healthcare expenses on its PERs. In addition to these expenses,
              Public Counsel reported $2,903 in PY 2005-2006 and $6,549 in PY 2006-
              2007 of additional healthcare benefits it provided to members. Additional
              healthcare benefits included the cost of long-term disability insurance, life
              insurance, employee welfare benefits, professional liability insurance, and
              retirement benefits.

              AmeriCorps Special Provisions (2005-2006), Section IV. I.4. Health Care
              Coverage, states that grantees must provide a health care policy to members
              who are not otherwise covered. Further, the policy must include benefits
              such as physician services for illness or injury, hospital room and board,
              emergency room, x-ray and laboratory, and prescription drugs. Premiums for
              long-term disability insurance, life insurance, employee welfare benefits,
              professional liability insurance, and retirement benefits are not allowable.

             In PY 2005-2006 and PY 2006-2007, Public Counsel claimed $600 and $900,
              the full amount of state bar dues for two attorneys who spent a portion of their
              time supervising AmeriCorps members. OMB Circular A-122, Cost Principles
              for Non-Profit Organizations, Attachment A. General Principles, Paragraph
              B.1. Direct costs, states that direct costs are those that can be identified
              specifically with a particular final cost objective. When Public Counsel
              created the budget for the organization, it determined that the AmeriCorps
              program would pay the full amount of bar dues. Public Counsel considered it
              acceptable to charge the full amount of the bar dues to the AmeriCorps grant,
              stating that it incurred other expenses it could have, but did not, charge to the
              grant.

             In PY 2006-2007, Public Counsel claimed $644 of airfare expenses for one of
              the attorneys who supervised AmeriCorps members to attend a conference in
              Buenos Aires, Argentina. AmeriCorps National Application Instructions
              (2005), Appendix E Budget Instructions, C.1 Staff Travel, allows only
              domestic travel.

             In PY 2005-2006 and PY 2006-2007, Public Counsel claimed $1,346 and
              $1,201 of staff travel expenses to attend conferences, recruit students for its
              summer program, and perform work on a case originally handled by a former
              AmeriCorps member, as follows:



                                             27
                   PY 2005-2006                                                       Amount
                   Directors of Litigation and Advocacy Conference                     $523
                   American Bar Association on Homelessness and Poverty                  612
                   Law student recruiting trip                                           211
                   Total                                                              $1,346
                   PY 2006-2007
                   Conference in Buenos Aires*
                   National Consumer Law Center Conference                             $663
                   Trip to Sacramento to work on prior case                              538
                   Total                                                              $1,201

                        * Refer to the preceding discussion of Buenos Aires travel.

               Public Counsel considered the travel expenses allowable because they were
               related to the AmeriCorps program. OMB Circular A-122, Attachment A.
               General Principles, Paragraph B.1. Direct costs, states direct costs are those
               that can be identified specifically with a particular final cost objective. In
               addition, we noted during our review of the supporting documentation that
               several of the transactions were only supported by credit card statements and
               receipts. Further, some of the supporting documentation included travel
               costs in excess of Public Counsel’s limits and included alcohol and
               international travel expenses.

Exceptions identified above resulted in overstated total member support and program
operating costs on Public Counsel’s FSRs. We did not, however, question Federal costs,
because Public Counsel’s accounting system commingled Federal share and match.
Additionally, Public Council incurred excess costs and had substantial overages in match
requirements. See Finding 7 for a description Public Council not segregating Federal and
match costs in the accounting system.

Recommendations:

       8a.     The Corporation instruct EJW to review applicable regulations and develop
               polices and procedures to ensure claimed costs are allowable, adequately
               documented, and allocable in accordance with applicable cost principles and
               regulations.

       8b.     The Corporation should monitor EJW’s claimed costs to ensure that policies
               and procedures are implemented.

       8c.     The Corporation disallow and recover the questioned costs and the related
               administrative costs.

EJW’s Response: EJW welcomes the opportunity to work with the Corporation to ensure
that all claimed costs are allowable and welcomes verification from the Corporation that its
policies and procedures are in compliance. EJW did not agree with $7,250 of the
questioned costs in Schedule A or with questioned professional liability insurance costs at
Public Counsel.



                                               28
Accountants’ Comments: We continue to make the recommendations described above.
As discussed above, we questioned professional liability insurance costs for AmeriCorps
attorneys, because EJW claimed these costs as health-care expenses.

9.      EJW did not ensure that subgrantees complied with AmeriCorps requirements
        for eligibility, unemployment insurance, and living allowance payments.

EJW did not ensure subgrantee compliance with the following requirements:

Eligibility

              Documentation indicated that Public Counsel verified the eligibility of two PY
               2005-2006 members after the members started service. The members
               started service in August 2006, and citizenship verification forms were not
               completed until September 2006. Public Counsel officials stated that they
               verified member citizenship before the start of service, but completed the
               paperwork after the members started service.

              The files for one PY 2005-2006 LAFLA member and one PY 2006-2007
               LAFLA member were missing citizenship documentation. After this issue was
               identified during our testing, LAFLA provided the citizenship documentation
               for the two members.

According to 45 C.F.R. § 2522.200, What are the eligibility requirements for an AmeriCorps
participant?, every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States. AmeriCorps Special Provisions (2005-2006),
Section C.1. Member Enrollment Procedures, states that an individual is enrolled as an
AmeriCorps member when the program has verified member eligibility to serve.

Unemployment Insurance

As discussed in Schedule B, LAFLA claimed member unemployment insurance expenses of
$318 ($133 Federal and $185 match) in PY 2005-2006 and $1,436 ($750 Federal and $686
match) in PY 2006-2007. In addition, Public Counsel claimed member unemployment
insurance expenses of $896 in PY 2005-2006 and $1,365 in PY 2006-2007. Unemployment
insurance expenses are unallowable in accordance with AmeriCorps Special Provisions
(2005-2006), Section IV.I.2.d. Unemployment Insurance, which states:

               The U.S. Department of Labor ruled on April 20, 1995 that Federal
               unemployment compensation law does not require coverage for
               members because no employer-employee relationship exists. The
               Grantee cannot charge the costs of unemployment insurance taxes to
               the Grant unless mandated by state law. Programs are responsible
               for determining the requirements of state law by consulting their State
               Commission, legal counsel or the applicable state agency.

Further, the California Office of the Governor, California Volunteers website states:

               For most purposes, AmeriCorps members are considered to be participants
               in a national service program, not employees. For example, state law
               specifically states that AmeriCorps members are not eligible for
               unemployment benefits.
                                              29
LAFLA officials said that they erroneously claimed unemployment insurance expenses and
Public Counsel officials said that they were unaware that unemployment insurance
expenses were unallowable.

Living Allowance Distribution

             LAFLA provided lump-sum living allowance payments of $4,077 ($1,890 of
              Federal costs and $2,560 of match costs) to two PY 2005-2006 members and
              $3,354 ($1,561 of Federal costs and $2,109 of match costs) to two PY 2006-
              2007 members upon the completion of their service. LAFLA officials stated
              that they considered the members entitled to the full amount of living
              allowance specified in the member contract even if the members completed
              their service requirements before the member contract end date.

             LAFLA calculated initial living allowance payments made to two PY 2005-
              2006 members and to three PY 2006-2007 members based on number of
              hours served by the members. LAFLA officials stated that it was their
              understanding that if the members did not serve the full term, they were not
              entitled to the full amount of the living allowance. The members served their
              full terms and eventually received the full amounts of the living allowance
              specified in the member contract.

             Public Counsel provided $1,974 of advance living allowance payments to two
              PY 2006-2007 members. The members started on August 28, 2006, but
              were paid their first living allowance payment on August 15, 2006. Public
              Counsel officials were unaware that they were not permitted to provide
              advance payments to the members.

AmeriCorps Special Provisions (2005-2006), Section IV. I.1. Living Allowance Distribution,
states that programs should pay living allowance in regular increments, such as weekly or
bi-weekly, paying an increased increment only for increased living expenses, such as food,
housing, or transportation, and that the program is not permitted to provide a “lump sum”
payment of the remaining living allowance upon a member’s early completion of a term of
service, nor provide “make-up” payments if the member enrolls after the program start date.

Recommendations:

       9a.    The Corporation require EJW to strengthen its subgrantee training and
              monitoring to ensure that subgrantees comply with eligibility, member
              unemployment insurance, and living allowance AmeriCorps requirements.

       9b.    The Corporation should verify implementation of the training and monitoring.

       9c.    The Corporation disallow and recover the questioned costs and the related
              administrative costs.

EJW’s Response: EJW welcomes the opportunity to work with the Corporation to
strengthen its training and monitoring of subgrantees. EJW does not agree with $1,890 of
questioned PY 2005-2006 lump-sum living allowance payments. EJW stated that LAFLA
entered into oral commitments with two members prior to the September 6, 2005, effective
date of the Provisions. EJW and Public Counsel do not agree that its two PY 2006-2007
                                            30
members were provided advance living allowance payments and stated that the members
did not receive more than 24 equal payments that totaled their full award amounts.

Accountants’ Comments: We continue to make the recommendations described above.
Member contracts for the two PY 2005-2006 LAFLA members were signed on September
21, 2005, and September 22, 2005, respectively . The two PY 2006-2007 Public Counsel
members completed their service in less than 12 months and thus were not eligible to
receive all 24 living allowance payments.

10.    EJW did not have written procedures to perform subgrantee site visits or desk
       reviews within a specific period and did not have procedures to obtain subgrantee
       audit management letters or perform necessary reconciliations.

Subgrantee Monitoring Visits

EJW did not have written monitoring procedures for performing site visits and desk reviews
within a specific period. EJW representatives stated they attempt to visit or audit as many
sites as possible during each three year grant cycle. EJW did not perform site visits or
conduct desk reviews of three PY 2005-2006 subgrantees and one PY 2006-2007
subgrantee. EJW representatives stated that they did not perform site visits or conduct desk
reviews because the four subgrantees were leaving the program.

According to 45 C.F.R. §2541.400(a), Monitoring by grantees, grantees are responsible for
managing the day-to-day operations of grant- and subgrant- supported activities to ensure
compliance with applicable Federal requirements and that performance goals are being
achieved. Grantee monitoring must cover each program, function, or activity.

Subgrantee A-133 Reports and Management Letters

EJW did not have procedures in place to obtain management letters from the subgrantees
or perform reconciliations of subgrantee payments to the Schedule of Expenditures on
Federal Awards. OMB Circular A-133, Audits of States, Local Governments and Non-Profit
Organizations, Subpart D. 400(d) Pass-through Entity Responsibilities, requires grantees to
ensure that subrecipients undergo audits meeting requirements of the circular. According to
45 C.F.R. § 2541.260, Non-Federal Audit, subsection (b)(4), recipients must consider
whether subrecipient audits necessitate adjustment of the grantee’s own records. EJW
officials said they did not require subgrantees to submit management letters and reviewed
report expenditures as subgrantee audit reports were received.

Recommendations

       10a.   The Corporation require EJW to write monitoring policies, strengthen its
              monitoring tool for the issues identified in this report, and perform the
              monitoring in accordance with its policies.

       10b.   The Corporation require EJW to strengthen its subgrantee program
              monitoring procedures to ensure that all OMB Circular A-133 management
              letters are obtained, necessary reconciliations are performed, and results of
              these procedures are documented.

       10c.   The Corporation ensure that EJW’s strengthened monitoring program is
              implemented.
                                             31
       10d.   The Corporation increase its onsite monitoring of EJW programs to ensure
              that issues in this report are corrected.

EJW’s Response: EJW welcomes monitoring by the Corporation to ensure compliance,
but does not agree that its monitoring processes and tools need strengthening or that
subgrantee management letters should be obtained.

Accountants’ Comments: We continue to make the recommendations described above.




                                           32
               APPENDIX A

           EQUAL JUSTICE WORK’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
June 3, 2008

Richard Samson
Audit Manager
Office of the Inspector General
Corporation for National and Community Service
1201 New York Avenue NW, Suite 830
Washington, DC 20525

Dear Mr. Samson:


Pursuant to your email on May 20, 2008, Equal Justice Works presents the following
information in response to the draft version of the Office of Inspector General’s audit report.
These comments are submitted on behalf of Equal Justice Works and the project subgrantees.

Equal Justice Works is concerned about the results and recommendations of the report, many
of which we believe are not supported by the facts or the laws. While we do not claim to be
perfect, and we acknowledge instances where our performance could be better, the findings
do not warrant the return of Corporation for National and Community Service (Corporation)
funds. The draft report submitted by Cotton & Co. to the Office of the Inspector General (IG)
does not, and could not, claim that the services promised in our grant proposals to the
Corporation were not delivered. In some of the items questioned by the report as unallowable
expenditures, we were, in fact, seeking to save government funds.

We have worked in close cooperation with the Corporation for more than twelve years to
implement successful programs and to monitor compliance with Federal regulations. We will
continue to work with the Corporation to maintain the quality of the program and to enhance
systems of management and accountability as deemed necessary.

We are very proud of our program’s results. Equal Justice Works manages a full time
AmeriCorps Program and an education award only program for law students to provide
critically-needed legal services in communities around the country. During the period covered
by this audit:

    66 AmeriCorps Legal Fellows recruited 6,245 law student and lawyer volunteers.
    Together they provided essential legal services to 45,325 people.
    657 Summer Corps members provided 225,566 hours of legal services, benefiting 33,016
    people. 633 Summer Corps members successfully completed terms and received $1,000
    AmeriCorps education awards.
                 Response to Draft Report, June 3, 2008
                 Page 2 of 22




Equal Justice Works has some of the highest program standards in the national service field:

    In our fifth year of this grant, we require sites to achieve a 50% match. Equal Justice
    Works and its subgrantees matched at 48% in the first three years of the grant, and are
    budgeted to match at 53% in 2007-2008.
    We maintain some of the highest enrollment and completion rates in the country.
    Including Summer Corps, 382 of 385 member slots were filled in 2006-2007 (99%
    recruitment) and 365 members successfully completed terms (96% retention).

We have done our best and continue to work diligently to administer our programs with the
utmost rigor and professionalism. We are confident that our AmeriCorps programs achieve the
highest possible impact for the fewest taxpayer dollars.

Below we have set forth our responses to the draft report. The first part of each section is the
result taken from the report. This is followed by our response and basis for our response for
each item raised in the report. All references to AmeriCorps Provisions are for the 2006
Provisions unless otherwise stated.

Part 1: Specific Comments on Questioned Costs (Schedule A):
   1. Result: EJW claimed $2,531 of prior-period expenses as detailed below:

                                              Description                                Amount
                 Mississippi Industries For the Blind, Clothing for PY 2004-2005
                 members                                                                  $2,262
                 Dell Server purchased during PY 2004-2005                                   269
                 Total                                                                    $2,531

      45 C.F.R. §2543, Uniform Administrative Requirements for Grants and Agreements
      With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
      Subpart C. 28., Period of availability of funds, states that, where a funding period is
      specified, a recipient may charge the grant only allowable costs resulting from
      obligations incurred during the funding period. EJW officials considered the AmeriCorps
      funding to be continuation funding and not funding required to be spent during a specific
      funding period. We questioned the $2,531.

Response:

These costs are allowable. Equal Justice Works incurred the above costs during the funding
period, and in the case of the charge for Mississippi Industries for the Blind (MIB), we received
specific permission from our Corporation Grants Officer to bill it exactly as we did. Equal
Justice Works challenges these questioned costs.
                   Response to Draft Report, June 3, 2008
                   Page 3 of 22




Basis:

Item: Mississippi Industries for the Blind, Clothing for PY 2004-2005 members
Amount: $2,262

In 2006, Equal Justice Works received a bill from MIB for an order placed in during the 2004-
2005 grant year. In a phone conversation, Equal Justice Works Comptroller Amin Kakeh
requested and received permission from our Corporation for National and Community Service
Grants Officer to bill these costs to the 2005-2006 grant.

Item: Dell Server
Amount: $269

AmeriCorps Provision Section IV O describes grant periods and interval funding:

         For the purpose of the grant, a project period is the complete length of time the grantee
         is proposed to be funded to complete approved activities under the grant. A project
         period may contain one or more budget periods. A budget period is a specific interval of
         time for which Federal funds are being provided to fund a grantee's approved activities
         and budget.

         Unless otherwise specified, the grant covers a three-year project period. In approving a
         multi-year project period, the Corporation generally makes an initial award for the first
         year of operation. Additional funding is contingent upon satisfactory performance and
         the availability of funds. The project period and the budget period are noted on the
         award document.

The project period and funding period delineated in the CNCS award letter for grant #
03NDHDC001 is 8/13/2003-3/21/2007. Equal Justice Works incurred and expended the above
costs during the same funding period.


   2. Result: EJW claimed $2,700 ($1,900 in PY 2005-2006 and $800 in PY 2006-2007) of
      unsupported conference registration fees. It provided documentation to support
      payment of the expense, but did not provide documentation to indicate the registration
      fee amount. OMB Circular A-122, Attachment A. General Principals, Paragraph A.2.
      Factors affecting allowability of costs, states that an award cost must be adequately
      documented to be allowable. We questioned $2,700.

Response:
                  Response to Draft Report, June 3, 2008
                  Page 4 of 22




These costs are allowable. The American Bar Association has provided documentation of
conference costs that meets OMB requirements (Attachment 1). Equal Justice Works
challenges the questioned cost.

Basis:

As part of member training, Equal Justice Works sends all AmeriCorps Fellows to the annual
Equal Justice Conference presented by the American Bar Association (ABA) and the National
Legal Aid and Defender Association (NLADA). In 2006, Equal Justice Works negotiated a
$100 registration rate with the ABA for 19 AmeriCorps Fellows. In 2007, Equal Justice Works
sent two staff members to the training at the full rate ($400).

   3. Result: EJW claimed $1,243 ($1,006 in PY 2005-2006 and $237 in PY 2006-2007) of
      meal expenses as detailed below.

                    PY         Description                            Amount
                 2005-         Grillfish (Communications Lunch)
                 2006                                                    $43
                 2005-         M Bable (Program Director Lunch)          509
                 2006
                 2005-         Cap City (AmeriCorps Attorney             454
                 2006          Lunch)
                 2006-         Broadway Grill (Dinner)                    80
                 2007
                 2006-         AmeriCorps Attorney and Staff             157
                 2007          (Dinner)
                 Total                                                $1,243

         The documentation provided by EJW indicated that the claimed costs were for a lunch
         involving its Communications Director and the EJW AmeriCorps Program Director;
         meals for the EJW AmeriCorps Program Director and an AmeriCorps member during a
         site visit; and meals for AmeriCorps members and subgrantee program directors during
         training events. However, we could not determine the allowability of the expenses
         because the costs were supported by non-itemized credit card receipts. Without
         itemized receipts, we could not determine compliance with OMB Circular A-122
         Appendix B Selected Items of Costs, Paragraph 3. Alcoholic beverages. Adequate
         documentation is required by OMB Circular A-122 Cost Principles for Non-Profit
         Organizations, Attachment A. General Principals, Paragraph A.2. Factors affecting
         allowability of costs. Additionally, no documentation was provided to demonstrate the
         site visit meals are necessary for the performance of the award or the costs were not
         unallowable entertainment cost in accordance with OMB Circular A-122, Appendix B
         Selected Items of Costs, Paragraph 14, Entertainment Costs. We questioned $1,243.
                   Response to Draft Report, June 3, 2008
                   Page 5 of 22




Response:

Nearly all of these costs are allowable. Four of the five meals involved meetings during
trainings or site visits. Equal Justice Works challenges $1,200 of the questioned costs.

Basis:

The AmeriCorps website, under AmeriCorps Policies and Policy FAQs, FAQ Number 990111
states,

         “Meals for staff while they are on travel is an allowable cost. (Emphasis added.)
         Otherwise meals are not generally an allowable cost. Generally, under OMB Cost
         Principles at 2 CFR 215 and 225 (formerly Circulars A-87 and A-110), the grantee
         cannot charge meals for staff working late or lunch for staff working through normal
         lunch period. One recognized exception in the Cost Principles is for staff attending a
         conference or training activity that includes meals during a working session/activity.”

Here is a description of these events and meals:

8/11/2005: During the Project Director’s Training at the Doubletree Washington, eleven site
staff and two Equal Justice Works staff received box lunches. The Doubletree does not provide
itemized receipts for in-house catered events. No alcohol was purchased.

3/21/2007: During the 2007 Equal Justice Conference in Denver, Senior Program Manager
Cole McMahon met with five AmeriCorps Fellows and staff over dinner to prepare the next
day’s training sessions. An itemized receipt was not made available. Alcohol was not billed to
the grant.

6/7/2007: While conducting a site visit with Montana Legal Services Association, Senior
Program Manager Cole McMahon and two AmeriCorps Fellows met over dinner to discuss
work plans and supervision at the On Broadway restaurant in Helena. An itemized receipt was
not made available. No alcohol was purchased.

6/13/2006: Three Equal Justice Works staff met to discuss marketing and resource
development for the AmeriCorps program. While this cost was directly related to AmeriCorps
business, Equal Justice Works does not challenge this cost.

10/20/06: During the Fall Leadership Development Training, 28 AmeriCorps Fellows attended
a group lunch at Capital City Brewing Company. An itemized receipt was not made available.
No alcohol was purchased.


   4. Result: EJW claimed $819 of gifts provided to members and trainers as detailed below:
                   Response to Draft Report, June 3, 2008
                   Page 6 of 22




                                        Description                         Amount
               Gifts cards for trainers                                     $150
               Magazine subscriptions for members-member                     443
               recognition
               Magazine subscriptions for members-member                      149
               recognition
               Gifts for trainers                                              56
               Lunch and gift for trainer                                      21
               Total                                                         $819

         OMB Circular A-122, Attachment B. Selected Items of Cost, Paragraph 14,
         Entertainment Costs, states that entertainment costs, including amusement, diversion,
         and social activities and any costs directly associated with such costs (tickets to shows
         or sports events, meals, lodging, rentals, transportation, and gratuities), are
         unallowable. We questioned $819.

Response:

These costs are allowable. The items listed in this finding not entertainment-related and, in
fact, saved federal funds. Equal Justice Works challenges these questioned costs.

Basis:

As part of our ongoing efforts to reduce costs, Equal Justice Works developed these low-cost
alternatives:
                In lieu of the $540 daily rate for trainers and consultants, Equal Justice Works
                provides $25 gift certificates.
                In lieu of allowable recognition items, such as plaques and paperweights, which
                can cost up to $90 per item, Equal Justice Works provides lower-cost magazine
                subscriptions. Costs for the discounted subscriptions as recognition items
                average $20 per AmeriCorps Fellow.


   5. Result: EJW did not provide an end-of-term evaluation form for one member who
      served a second term in PY 2005-2006 and four members who served second terms in
      PY 2006-2007. AmeriCorps Special Provisions 2005-2006, Section IV. D.6.
      Performance Reviews, requires mid-term and end-of-year member performance
      evaluations. According to 45 C.F.R. §2522.220(c), Eligibility for Second Term, a
      participant is not eligible for a second or additional term of service and/or for an
      AmeriCorps education award without a satisfactory performance evaluation. We
      questioned one member’s education award of $1,000 in PY 2005-2006 and the four
      members’ education awards of $4,000 in PY 2006-2007.
                Response to Draft Report, June 3, 2008
                Page 7 of 22




Response:

Equal Justice Works has documented that all tested members successfully completed terms
as per AmeriCorps regulations. While we were unable to produce the written evaluations for
all of the members in question, the supervisors attest that evaluations were conducted. Under
the circumstances, it would be unfair to demand the return the education awards. Equal
Justice Works challenges the questioned education awards.

Basis:
AmeriCorps Provisions IV. D. 6. states an evaluation “should focus on such factors as:

   a. Whether the member has completed the required number of hours

   b. Whether the member has satisfactorily completed assignments; and

   c. Whether the member has met other performance criteria that were clearly
      communicated at the beginning of the term of service.”

Equal Justice Works provided the following documentation for the members in question:

   1) Final timesheets with supervisor’s certification of hours.
   2) Final member reports outlining agreed-upon activities that were accomplished during
      term.
   3) WBRS exit forms demonstrating the successful completion of the term of service.

In the member agreement, Summer Corps host sites certify that they will conduct evaluations.
Equal Justice Works did not collect 633 evaluations for the members who served nationwide
during the grant years in question. That the members in question were accepted for a second
term is evidence of their success in the first term. Equal Justice Works produced an evaluation
from Community Legal Services of Philadelphia for _______, whose education award was
nonetheless questioned. Though four host organizations were unable to produce the written
evaluations for law students who served two, and in one case, three years ago, Equal Justice
Works accepts their formal certification that the evaluations took place.

In our judgment, the members in question successfully completed their first AmeriCorps terms
and received favorable evaluations, and were therefore eligible for a second term, which they
also completed successfully. The absence of a separate evaluation form is a technicality that
does not justify the return of an education award when these AmeriCorps members completed
two terms successfully and fulfilled all of their requirements for their awards.

   6. Result: Six members started service before signing member contracts (three members
      in PY 2005-2006 and three members in PY 2006-2007). AmeriCorps Special
      Provisions (2005-2006) Section IV. C.1. Member Enrollment Procedures, states that an
      individual is enrolled as an AmeriCorps member when he or she signs a member
                   Response to Draft Report, June 3, 2008
                   Page 8 of 22




         contract. EJW officials said they were unaware of the requirement for members to sign
         contracts before starting service.

         We questioned education awards of $2,000 for the two members who did not meet
         minimum service hours required for their education awards when we subtracted the
         service hours performed before member contracts were signed, as detailed below:

                                             Hours Before   Eligible    Service   Questioned
                     WBRS      Timesheet        Signed      Service      Hours    Education
          Member     Hours       Hours         Contract      Hours     Required     Award
            1         360         360             144         216         300       $1,000
            2         317         317             168         149         300       $1,000

Response:

Equal Justice Works has documented that all tested members successfully completed terms
as per AmeriCorps regulations. Equal Justice Works is in substantial compliance with the
AmeriCorps provisions on member enrollments. Equal Justice Works challenges the
questioned education awards.

Basis:

As described below in Compliance Result #1, the AmeriCorps Provision under section IV. C.
1., “Member Enrollment,” is vague and contradictory, and has been revised in the 2008 version
of the provisions to clarify this very issue. Equal Justice Works certifies that _________ and
_________ successfully completed terms of service, and should receive full education awards.


Part 2: Specific Comments on Compliance Results and Recommendations
(Exhibit B):
1.       Result: Some member contracts were not signed before applicants started service, and
         one member continued to serve past the contract end date.


Response:

In the report, Cotton & Co. disallows all hours served prior to a member contract being signed,
but the relevant AmeriCorps provision is clear that the hours count when a member contract is
signed or the member enters into a legally enforceable commitment as determined by state
law. In the exit interview, we made this point and the auditors refused to acknowledge the
second clause of the provision. Equal Justice Works has documented that all tested members
successfully completed terms. Equal Justice Works challenges the questioned education
awards.
                 Response to Draft Report, June 3, 2008
                 Page 9 of 22




Basis:

This result relates to the Legal Aid Foundation of Los Angeles and Public Counsel.
Responses are specific to each organization.

Legal Aid Foundation of Los Angeles responds to this result as follows:

“LAFLA enrolled all members in compliance with this provision.

Section IV. C. of the AmeriCorps grant provisions addresses the requirements for member
enrollment. Subsection 1. b. requires that, prior to enrolling a member in AmeriCorps, the
program make commitments to the individuals to serve. Commitment is defined as signing a
member contract or “otherwise entering into a legally enforceable commitment as determined
by state law.” (Emphasis added)

Section 1622 of the California Civil Code states: “All contracts may be oral, except such as are
required by statute to be in writing.” The following sections of the code, generally known as
the Statute of Frauds, lay out those contracts that are required to be in writing. None of the
exceptions to Section 1622 apply in this situation.

The fact that a subsequent document, the member contract, is required to be in writing
pursuant to the grant provisions does not limit the effect of Section 1622 or interfere with the
effectiveness of the oral agreement. “The rule is well established and uniformly followed that
when the respective parties orally agree upon all the terms and conditions of a contract with
the mutual intention that it shall thereupon become binding, the mere fact that a formal written
agreement to the same effect is to be thereafter prepared and signed does not alter the
binding validity of the original contract.” Thompson v. Schurman, 65 Cal. App. 2d 432 (1944)
(citations omitted).

As there was a binding contractual commitment prior to the commencement of services, as
defined in subsection b., and there is no requirement in the law that the signed contract
predate the commencement, all participants at LAFLA did complete the required 1700 hours,
and the education awards should be allowed.”

Public Counsel responds to this result as follows:

“Public Counsel is aware that in PY 2006-2007, _____________ signed her contract one day
after starting. However, this was ________ 2nd year of service and the one-day delay in
signing was just an oversight.

The report questions the education award provided to __________. This is apparently based
on 14 hours being served after the end of the contract and an additional arithmetic error of
1.75 hours. Public Counsel is aware that in PY 2006-2007, ________ continued to work past
his contract end date of August 2, 2007. However, _______ was unable to start on August 2,
                   Response to Draft Report, June 3, 2008
                   Page 10 of 22




2006 due to personal reasons. His contract did not get amended but his actual service hours
began on August 28, 2008.

Moreover, as noted in the May 20, 2008 Draft Audit Report, Public Counsel provided a sworn
declaration (Attachment 2) from the AmeriCorps Member attesting that he did not include in his
timesheets 17 additional hours spent by the Member traveling to and from a required, out-of-
town AmeriCorps training. Once these additional hours are added, the Member had more than
sufficient hours to earn the education award. Accordingly, Equal Justice Works and Public
Counsel dispute the questioning of this education award. “


         Responses to Recommendations:

         1a. Equal Justice Works welcomes the opportunity to work with the Corporation to
         improve these systems.

         1b. Equal Justice Works welcomes the opportunity to work with the Corporation to
         improve these systems.

         1c. Equal Justice Works certifies that all members listed in the report successfully
         completed full AmeriCorps terms. Equal Justice Works challenges the recovery of
         education awards for these members.

         1d. Equal Justice Works certifies that all members listed in the report successfully
         completed full AmeriCorps terms. Equal Justice Works challenges the recovery of
         interest payments for these members.

         2.    Result: Some member position descriptions included activities that are
         inconsistent with the regulations and grant terms.

Response:

The report does not charge any member with engaging in prohibited activities. In this instance,
the auditors are concerned about generic job descriptions for summer internships and ignores
the sworn certifications in the same documents and the final reports submitted by the members
that they did not engage in any prohibited activity. Equal Justice Works challenges this result.

Basis:

The four instances cited in the report refer to Summer Corps position descriptions. In each
case, the language in question is a description of what the organization does, and generic
explanations of functions interns may perform. The audit highlights language in these generic
internship descriptions that state that the organization’s work involves political advocacy, but
the descriptions do not state that the member will engage in those activities.
                Response to Draft Report, June 3, 2008
                Page 11 of 22




In each cited case, the Summer Corps member signed the contract which includes an
agreement not to perform activities prohibited in CNCS regulations, 45 CFR 2520.30. These
members also signed post-service Certification of Nonparticipation in Prohibited activities
forms. End of term accomplishment reports also verify that these members engaged in
acceptable service activities under the grant and regulations.

Equal Justice Works has long-established strict, extensive and redundant procedures to
ensure that no members engage in activities that are inconsistent with regulations and grant
terms. Equal Justice Works outlines AmeriCorps Prohibited Activities at several junctures
throughout the recruitment, application, orientation, enrollment and exit processes:


      •     Recruitment materials state that applicants’ projects must not involve any
            AmeriCorps Prohibited Activities;

      •     Applicants certify with the submission of their application that their project will not
            involve any AmeriCorps Prohibited Activities;

      •     Applications that contain the potential for participation in any AmeriCorps
            Prohibited Activities are followed up on with the applicant and supervisor;

      •     Offers of placement in the program state that their acceptance in the program is
            contingent upon their nonparticipation in AmeriCorps Prohibited Activities;

      •     Both member and host site supervisor orientation guides outline the AmeriCorps
            Prohibited Activities;

      •     The Service Contract, completed and signed by both the member and the
            supervisor prohibits participation in AmeriCorps Prohibited Activities; and

      •     The Exit Form includes a Certification of Nonparticipation in AmeriCorps
            Prohibited Activities.

      Response to Recommendations:

      2a. Equal Justice Works scrupulously follows AmeriCorps regulations regarding
      prohibited activities, and carefully reviews all contracts to ensure the member activities
      meet the purpose of the grant.

      2b. Equal Justice Works challenges the result that states our training and monitoring
      policies are insufficient.
                 Response to Draft Report, June 3, 2008
                 Page 12 of 22




3.    Result: EJW did not have documentation to demonstrate that some member evaluations
      were conducted.


Response:

Equal Justice Works certifies that all five Summer Corps cited in the report successfully
completed full terms of AmeriCorps service, and challenges the questioned education awards.
LAFLA conducted an end of term evaluation for the member in question. Equal Justice Works
and LAFLA challenge this questioned education award and associated costs.

Please refer to the response to Result 5 in Part 1.

Legal Aid Foundation of Los Angeles responds to this result as follows:

“The Report identifies ________ as the member who did not receive a final evaluation at the
conclusion of his first term. Such an evaluation was conducted in August, 2005, at the
conclusion of ______’s first term. Due to the press of business, a written documentation of the
evaluation was not prepared until December, 2005. A copy of the written evaluation is
attached (Attachment 3). In addition, payroll records reflect that _______ did complete the
required number of hours in his first term. Had he not done so, he would not have been
allowed to enroll for a second year.

_______’s end-of-term evaluation complies with the requirements of the grant provisions, and
the questioned costs and education award should be allowed.”

      Responses to Recommendations:

      3a. Equal Justice Works has strengthened policies and procedures regarding
      completion of midterm and final evaluations. We welcome the opportunity to work with
      the Corporation to strengthen our training and monitoring procedures.

      3b. In May of 2008, Equal Justice Works notified potential Summer Corps members and
      supervisors that final member evaluations must be submitted to Equal Justice Works in
      order to successfully complete the program and receive an education award. We
      welcome the opportunity to demonstrate these efforts to the Corporation.

      3c. Equal Justice Works and LAFLA certify that the specific member listed in the report
      received evaluations in compliance with AmeriCorps provisions, and successfully
      completed a full AmeriCorps term. Equal Justice Works challenges the recovery of
      living allowance and related administrative costs for this member.

      3d. Equal Justice Works certifies that all members listed in the report received
      evaluations, and successfully completed full AmeriCorps terms. Equal Justice Works
      challenges the recovery of education awards for these members.
                Response to Draft Report, June 3, 2008
                Page 13 of 22




      3e. Equal Justice Works certifies that all members listed in the report received
      evaluations, and successfully completed full AmeriCorps terms. Equal Justice Works
      challenges the recovery of accrued interest awards for these members.


4.    Result: EJW and the subgrantees tested had weaknesses in member timekeeping
      procedures.

Response:

Equal Justice Works, LAFLA and Public Counsel acknowledge instances in which individual
timesheets have incorrect placement of initials, use of whiteout and pencil, or faxed copies.
While we agree that we can improve upon our current practices, these are not material
deficiencies. For the period under consideration for the audit, Equal Justice Works staff has
collected timesheets from 657 Summer Corps members and entered hours into the
AmeriCorps Web Based Reporting System (WBRS). As WBRS is taken off-line by the
Corporation for National and Community Service this year, Equal Justice Works (and all
AmeriCorps programs) will be required to utilize the electronic timekeeping function of the
replacement system. This will eliminate all of the issues raised in the report.

      Responses to Recommendations:

      4a. Equal Justice Works welcomes the opportunity to work with the Corporation to
      implement new timekeeping procedures.

      4b. Equal Justice Works welcomes the opportunity to work with the Corporation on
      training subgrantees on new AmeriCorps timekeeping systems.

      4c. Equal Justice Works welcomes verification from the Corporation of the above
      recommendations.

5.    Result: EJW did not always complete member enrollment and exit forms and enter them
      into the Corporation’s WBRS in accordance with AmeriCorps requirements.

Response:

Equal Justice Works acknowledges instances in which enrollments and exits have been
entered into WBRS beyond 30 days. The results of our efforts to address this issue are clear
in Cotton & Co.’s member testing. For our 2005-2006 Katrina and Summer Corps members,
late enrollment and exits occurred 49 times. In 2006-2007, the number was down to four. We
will continue to make this a priority.

      Responses to Recommendations:
                  Response to Draft Report, June 3, 2008
                  Page 14 of 22




         5a. Equal Justice Works welcomes the opportunity to work with the Corporation to
         continue to improve our timely completion of enrollment and exits.

         5b. Equal Justice Works welcomes verification from the Corporation of the above
         recommendation.


6.       Result: EJW and its subgrantees did not always conduct orientation training or
         document member attendance at orientation.

Response:

Equal Justice Works and our subgrantees conduct orientations in compliance with AmeriCorps
Provisions. Equal Justice Works challenges this result.

Basis:

AmeriCorps Special Provisions, Section IV. D.3. Training, Supervision, and Support, states
that grantees must conduct an orientation for members. The Provisions do not dictate a
timeframe within which the orientation must be conducted.

The report states that 15 Summer Corps members and two AmeriCorps Legal Fellows did not
receive an orientation. Section IV. D. 3 of the AmeriCorps Provisions requires grantees to
conduct a “pre-service” orientation for all program members. The provisions do not define a
timeframe in which the orientation should take place. During the exit conference,
representatives from Cotton & Co. and the Inspector General’s Office suggested that an
orientation should take place on the first day, but a National Direct grantee obviously cannot
provide an orientation for 35 fulltime and 350 minimum time members on their first day of
enrollment.

In addition to on-site orientation at the subgrantee level, Equal Justice Works provides
orientation calls to new AmeriCorps Fellows and conducts an annual Leadership Development
Training each October to orient AmeriCorps Fellows to their service roles and to enhance the
skills needed to perform their service.

Equal Justice Works maintains that documentation of orientation is available for both Summer
Corps members and AmeriCorps Fellows as follows:

     •   Email records for Summer Corps members who receive an Orientation Guide prior to
         their enrollment.
     •   Travel receipts for AmeriCorps Fellows from around the country to attend the annual
         Leadership Development Training.

Legal Aid Foundation of Los Angeles responds to this result as follows:
                  Response to Draft Report, June 3, 2008
                  Page 15 of 22




“Section IV D. 3. of the AmeriCorps grant provisions addresses the requirements for
orientation. This section requires the grantee to conduct an orientation for members. The
orientation is designed to enhance the member security and sensitivity to the community. The
provision spells out a number of specific topics to be covered in the orientation.

_________, the AmeriCorps participant identified in this matter, received orientation that meets
all of the requirements of this section at the beginning of his first year of service. By the
beginning of his second year, he was well familiar with the community he was serving, and had
received training in all of the specific topics required by subsection D.3.

In addition, _______ did attend an orientation provided by Equal Justice Works in Washington
D.C. on October 27 through 30, 2005. Thus the orientation requirement was met, and this item
should be removed from the report.”

         Responses to recommendations:

         6a. Equal Justice Works challenges the result that orientations are not conducted or
         documented in keeping with AmeriCorps provisions.

         6b. Equal Justice Works welcomes verification from the Corporation of our compliance.

7.       Result: EJW and subgrantee financial management systems did not adequately account
         for and report grant costs in accordance with Federal requirements.


Response:

Equal Justice Works and our subgrantees admit that Financial Status Reports were submitted
late during the 2005-6 grant year. Equal Justice Works challenges some elements of the
result, including all but $275 of the questioned costs.

Basis:

During the 2005-2006 grant year, Equal Justice Works, Public Counsel and LAFLA submitted
Financial Status Reports to CNCS after deadlines. During that grant year, both the Equal
Justice Works Comptroller and Program Manager positions were unfilled for a number of
months. During the 2006-2007 grant year, Equal Justice Works revised our processes, trained
all finance staff on AmeriCorps fiscal management and addressed these delays. All Equal
Justice Works FSRs for the 2006-2007 grant year were submitted within 45 days of the end of
the grant period as is required by the CNCS Office of Grants Management. During 2006-2007,
on-time submissions by tested subgrantees increased by 80%.

Public Counsel responds to this result as follows:
                Response to Draft Report, June 3, 2008
                Page 16 of 22




“Public Counsel is aware that in PY 2005-2006 and 2006-2007, we used 1/12th of budgeted
amount instead of actual expenditures on our Periodic Expense Reports (PER). After a desk
audit was performed by Equal Justice Works in April 2007, we changed our procedure to
reflect actual expenditures.

Public Counsel is aware that some of the member health care, member training and staff
training were not supported but points out that we had substantial overages in our match
requirements. This was addressed when we changed our procedure to reflect actual
expenditures.

Public Counsel is aware that some of our Financial Status Reports (FSR) were late or never
submitted. This was due to a misunderstanding with Equal Justice Works on how to close one
grant year and still report for that same quarter on the new grant year. This has been clarified
through Equal Justice Work’s practice of emailing subgrantees as to when and for what period
an FSR is due.”

Legal Aid Foundation of Los Angeles responds to this result as follows:

“The report found that LAFLA overstated its staff and member travel for each of the examined
years. The findings are reflected in the following table:


                 PY 2005-2006              Claimed       Supported   Unsupported
           Personnel Costs-Match          $16,094         $14,145         $1,949
           Benefits-Match                   4,024           3,536            488
           Staff Travel-Federal               450                            450
           Member Travel Match                602                            602
           Member Travel-Federal            3,672           2,195          1,477
           Totals                         $24,842         $19,876       $4,966
                 PY 2006-2007
           Staff Travel-Federal              $483                            $483
           Staff Travel-Match                 802                             802
           Member Travel-Match              1,312          $1,275              37
           Totals                          $2,597          $1,275          $1,322

      According to 45 C.F.R. § 2543021, Standards for financial management systems,
      subsection (b), recipient financial management systems must provide for accurate,
      current, and complete disclosure of financial results of each Federally-sponsored
      program.

As the Report challenges only the Federal share of these expenses, this response will focus
on those items. As noted in the report, LAFLA had an excess of match more than sufficient to
offset these items.
                Response to Draft Report, June 3, 2008
                Page 17 of 22




We have carefully reviewed the documentation for all travel and training expenses for the two
affected years. It appears that some travel expenses were reported as training expenses. If
the two categories are examined together, it shows the following:

           PY 2005-2006                Per Report        Actual     Difference

           Staff Travel – Federal      450               0          (450)
           Staff Training - Federal    0                 730        730
           Total Staff T & T           450               730        280

           Member Travel –             3675              2195       (1480)
           Federal
           Member Training –           1505              2710       1205
           Federal
           Total Member T & T          5180              4905       (275)

           PY 2006-2007

           Staff Travel – Federal      483               0          (483)
           Staff Training - Federal    0                 825        825
           Total Staff T & T           483               825        342


As this chart demonstrates, with the exception of $275, the combination of training and travel
exceeds the reported amount in each year and category. Foundation records support all of
these figures. It would appear that in the analysis and in the FSR reports, some figures were
mislabeled as training instead of travel. Full documentation of these figures is available on
request. Equal Justice Works and LAFLA challenge $2,135 of the questioned costs for this
result ($2,410).”

      Responses to recommendations:

      7a. Equal Justice Works and its subgrantees welcome verification from the Corporation
      that FSRs are submitted on time.

      7b. Equal Justice Works will provide extensive training on financial management and
      accounting at our August site staff training, and we welcome the opportunity to work with
      the Corporation on this matter.

      7c. The only questioned costs in this result are assigned to LAFLA for unsupported
      amounts of $1,927 in PY 2005-2006 and $483 in PY 2006-2007. Equal Justice Works
      and LAFLA challenge $2,135 of the questioned costs for this result.
                  Response to Draft Report, June 3, 2008
                  Page 18 of 22




8.       Result: EJW and its subgrantees did not ensure the allowability of claimed Federal and
         match grant costs.


Response:

Equal Justice Works manages the grant in compliance with OMB regulations. Of the
questioned costs, Equal Justice Works maintains that $7,250 is allowable.

Basis:

The report cites unallowable expenses billed to the Federal share of $5,437 in PY 2005-2006
and $1,856 in PY 2006-2007. As outlined in response to Questioned Costs 1-4 in the report,
Equal Justice Works challenges all but $43 of these questioned costs, totaling $7,240.

With regard to the findings related to match costs such as promotional items, member
uniforms, transportation and finance fees, Equal Justice Works can provide justification for
specific items if necessary. Because Equal Justice Works has substantial overages in its
match, these costs are not questioned.

Public Counsel responds to this result as follows:


“Public Counsel is aware that in PY 2005-2006 and 2006-2007, we reported various costs in
our match that have been disallowed. However, since Public Counsel had substantial
overages in our match requirement, these were not questioned.


Public Counsel and Equal Justice Works disagree that professional liability insurance is not an
allowable expense for the grant. AmeriCorps Legal Fellows are different than other
AmeriCorps members; they are attorneys and all attorneys can have a malpractice claim filed
against them. Public Counsel must cover each attorney with the necessary professional
liability insurance and feels that it is absolutely the type of expense that should be allowable
under this grant. Moreover, AmeriCorps Provisions Section IV, I, 2A: Taxes and Insurance,
states: “The grantee is responsible for ensuring adequate general liability coverage for the
organization, employees and members, including coverage of members engaged in on- and
off-site project activities.”

In regard to the findings related to the state bar dues, conference costs, and overseas airfare
claimed in the match, Public Counsel acknowledges the recommendations. Again, because
Public Counsel had substantial overages in match requirements, these costs were not
questioned.”

         Responses to recommendations:
                  Response to Draft Report, June 3, 2008
                  Page 19 of 22




         8a. Equal Justice Works welcomes the opportunity to work with the Corporation to
         ensure all claimed costs are allowable.

         8b. Equal Justice Works welcomes verification from the Corporation that our policies
         and procedures are in compliance.

         8c. Equal Justice Works challenges $7,250 in questioned costs.



         9. Result: EJW did not ensure that subgrantees complied with AmeriCorps requirements
         for eligibility, unemployment insurance, and living allowance payments.


Response:

Equal Justice Works accepts some elements of this result and challenges others.

Basis:

Equal Justice Works, LAFLA and Public Counsel accept the result that California law does not
support the payment of unemployment insurance for AmeriCorps members. Responses to
eligibility and living allowance disbursement are specific to LAFLA and Public Counsel:

Legal Aid Foundation of Los Angeles responds to this result as follows:

“LAFLA has changed its procedures to ensure that all necessary eligibility documentation is
obtained for all grants. This problem should not recur.

The report finds LAFLA in violation of the AmeriCorps Provision IV. I. prohibiting “lump sum”
payments to members who are released after serving 1,700 hours. In a document titled,
“Living Allowance FAQ,” published 12/13/2005, the Corporation clarifies this policy:

         “The Corporation published the clarified Provision Section IV. I. on September 6,
         2005. The Director of AmeriCorps sent out a memo of explanation on October
         18, 2005 to clarify the start date:

         ‘We recognize that the timing of this clarification may have created problems for
         some programs. We want to be very clear on the effective date. The change is
         effective as of September 6, 2005. Programs that signed contracts or enrolled
         members prior to September 6, 2005 based on agreements that do not conform
         to the new provisions may follow their existing written policies and contract
         agreements until new contracts are executed.’”
                Response to Draft Report, June 3, 2008
                Page 20 of 22




LAFLA entered into agreements with two members prior to September 6, 2005. LAFLA and
Equal Justice Works challenge questioned living allowance payments of $4,077 ($1,890
Federal) made to these members in PY 2005-2006. LAFLA does not challenge questioned
costs of $3,354 ($1,561 Federal) in lump sum living allowance payments made in PY 2006-
2007. LAFLA acknowledges that such payments were prohibited for 2006-2007 members, and
for all current and future members.”

Public Counsel responds to this result as follows:

“Public Counsel is aware that in PY 2006-2007, the citizenship verification forms were signed
after the members began service. These members are attorneys and therefore must be
Permanent Lawful Residents or U.S. citizens to sit for the California bar.

Public Counsel is aware that some of the member health care, member training and staff
training costs were not supported but does points out that we had substantial overages in our
match requirements. As stated in Result 7, this was addressed when we changed our
procedure to reflect actual expenditures.

Public Counsel disputes the claim that two members in PY 2006-2007 were provided advance
living allowance payments. Public Counsel’s grant year is August 1st to July 31st. In order to
maintain accurate payment cycles and reconciliation, we cut a 1/24th check in the middle of
August 2006, but did not provide that check to the member until they began service. The
members did not receive more than 24 equal payments that totaled their full award.”

      Responses to recommendations:

      9a. Equal Justice Works welcomes the opportunity to work with the Corporation to
      strengthen our training and monitoring of subgrantees.

      9b. Equal Justice Works welcomes verification from the Corporation of our training and
      monitoring of subgrantees.

      9c. Equal Justice Works and LAFLA accept LAFLA’s questioned costs for lump sum
      payments made in 2006-2007 and challenge LAFLA’s questioned costs for lump sum
      payments made in 2005-2005 ($1,890).

      10. Result: EJW did not have written procedures to perform subgrantee site visits or desk
      reviews and did not have procedures to obtain subgrantee audit management letters or
      perform necessary reconciliations.


Response:

Equal Justice Works contends our current policies and procedures meet Federal requirements
and we challenge these results.
                   Response to Draft Report, June 3, 2008
                   Page 21 of 22




Basis:

Equal Justice Works maintains a rigorous monitoring process, as outlined in the Site Guide:
http://www.equaljusticeworks.org/communities/participants/americorps/siteguide.

Program monitoring and compliance occurs according to the life cycle of the program:

         •     Site selection. A key criterion for site selection is organizational capacity and
               experience managing federal grants.

         •     Technical assistance. Once selected as a site, we utilize technical assistance
               calls and a program startup blueprint.

         •     Training. At the beginning of August each year, we train staff from all sites
               (Project Directors and Fiscal Managers) on grant compliance and financial
               management.

         •     Ongoing site file and WBRS checks. In the first month of the program year, we
               require sites to submit member contracts, enrollment forms and documentation of
               eligibility. We also require sites to submit enrollment and exit forms in WBRS
               within 30 days.

         •     Site visits. The site visit protocol used by Equal Justice Works is included in the
               Site Guide.

         •     Desk Audits. In 2006-2007, these were conducted with all sites that did not
               receive a site visit.

         •     Check in calls and regular communication. In addition to emailed monthly
               updates, AmeriCorps program staff maintains regular phone and electronic
               communications with both site staff and AmeriCorps Fellows.

Equal Justice Works acknowledges that there is no procedure in place to obtain management
letters. AmeriCorps Provision V, section 3 B, outlines the responsibilities of pass-through
entities as follows:

         A recipient of a Federal grant (pass-through entity) is required in accordance with
         paragraph 400(d) of OMB Circular A-133, to do the following with regard to its
         subrecipients: (1) identify the Federal award and funding source; (2) advise sub-
         recipients of all requirements imposed on them; (3) monitor sub-recipient activities and
         compliance; (4) ensure sub-recipients have A-133 audits when required; (5) issue
         decisions and ensure follow-up on audit findings in a timely manner; (6) where
         necessary, adjust its own records and financial statements based on audits; and (7)
         require sub-recipients to permit access by the pass-through entity and auditors to
                Response to Draft Report, June 3, 2008
                Page 22 of 22




      records and financial statements, as necessary, for the pass-through entity to comply
      with A-133.

OMB Circular A-133 requires pass through entities to collect audits, but not management
letters.

      Response to recommendations:

      10a. Equal Justice Works challenges the result that our monitoring processes and tools
      are out of compliance.

      10b. Equal Justice Works challenges the result that requiring management letters is a
      requirement.

      10c. Equal Justice Works welcomes verification that our monitoring efforts are in
      compliance.

      10d. Equal Justice Works welcomes monitoring by the Corporation to ensure
      compliance.

Conclusion
For the foregoing reasons, Equal Justice Works challenges an overwhelming majority of these
results and requests substantial changes to the draft report submitted by Cotton & Co. to the
Office of the Inspector General. Equal Justice Works challenges $69,365 of the total
questioned costs, $71,562.



Thank you for your consideration.



Sincerely,




David Stern

Chief Executive Officer
               APPENDIX B

              CORPORATION’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
                                Coraoration for       m

                                NATIONAL &
                                COMMUNITY
                                SERVICE           -




To:

From:                                                     s Management

Cc:            Jerry w,
               Frank Trinity,
                              Chief

               Kristin McSwain, Director of AmeriCorps
               Carol Bates, Assistant Inspector General for Audit
               Sherry Blue, Audit Resolution Coordinator

Date:          June 12,2008

Subj:          Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
               Equal Justice Works


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to Equal Justice Works. In response to your request to
provide comments prior to the expiration of your contract with the audit firm, we are
addressing only one finding at this time. We will respond to all findings and
recommendations in our management decision when the final audit is issued.

The auditors questioned living allowance payments made to members attributable to
hours served before they signed their contracts. They also deducted the hours served
before the contract was signed and questioned the education award if the hours served
were insufficient to earn the education award after the deduction. The Corporation does
not agree that the hours served before the members signed a contract should be deducted.
The audit report does not provide any evidence that the members engaged in
inappropriate service activities or that they served outside of the period of performance of
the grant. The only issue raised by the audit report is whether service hours may be
recorded prior to an individual signing a member contract.

Neither the national service legislation nor implementing regulations even mention a
member contract as a pre-condition for serving as an ArneriCorps member. The grant
provisions require a member contract for the purpose of informing members of their
rights and responsibilities and as an element of establishing an obligation in the National
Service Trust, but not as a pre-condition for recording service hours.

The only criteria referenced by the audit report are the grant provisions. We do not
interpret the grant provisions as disallowing otherwise legitimate service hours solely
because they were performed prior to signature of a member contract. The provision
itself defines enrollment, not the service start date, and does not state that the member
contract signature date must coincide with the term of service start date. In fact the
provision, in Section IV C. 1.a.iii says that an individual is enrolled when "the individual
has begun a term of service;" and, the provisions in C. 1.d. state "Member Enrollment:
Within 30 calendar days of the member starting service the program must complete and
approve the enrollment". Thus, the provision itself describes enrollment as occurring
subsequent to the beginning of the term of service. Read in its entirety, the criteria for
this finding is a requirement that the grantee be diligent in the overall enrollment process
for its AmeriCorps members within a reasonable time after they have begun service. The
provision itself states that non-compliance could result in possible sanctions to the
program, such as re-assignment of unfilled AmeriCorps positions to other programs, or
suspending or terminating the award. Thus, there is no indication that this provision in
any way defines criteria attributable to an AmeriCorps member's ability to perform
service toward their commitment. Therefore, we cannot concur that the performance of
service prior to signing a member contract is an appropriate basis to question education
awards.

The Corporation will address the remaining questioned costs and other findings during
audit resolution after the audit is issued as final.
